No. _____
IN THE

Supreme Court of the United States
___________

JONATHAN REISMAN,
v.

Petitioner,

ASSOCIATED FACULTIES OF THE UNIVERSITY
OF MAINE, et al.,
___________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
___________
PETITION FOR WRIT OF CERTIORARI
___________
ROBERT ALT
DANIEL DEW
THE BUCKEYE INSTITUTE
88 East Broad Street
Suite 1120
Columbus, Ohio 43215
(614) 224-4422

ANDREW M. GROSSMAN
Counsel of Record
MARK W. DELAQUIL
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

QUESTION PRESENTED
Three times in recent years, this Court has recognized that schemes compelling public-sector employees to associate with labor unions impose a “significant impingement” on those employees’ First Amendment rights. Knox v. SEIU, 567 U.S. 298, 310–11
(2012); Harris v. Quinn, 134 S. Ct. 2618, 2639 (2014);
Janus v. AFSCME, 138 S. Ct. 2448, 2483 (2018). The
most recent of those decisions, Janus, likewise recognized that a state’s appointment of a labor union to
speak for its employees as their exclusive representative was “itself a significant impingement on associational freedoms that would not be tolerated in other
contexts.” 138 S. Ct. at 2478. The lower courts, however, have refused to subject exclusive representation
schemes to any degree of constitutional scrutiny, on
the mistaken view that this Court approved such arrangements in Minnesota State Board for Community
Colleges v. Knight, 465 U.S. 271 (1984). The question
presented is therefore:
Whether it violates the First Amendment to designate a labor union to represent and speak for publicsector employees who object to its advocacy on their
behalf.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner Jonathan Reisman was Plaintiff–Appellant in the court below.
Respondents, who were Defendants–Appellees in
the court below, are the Associated Faculties of the
University of Maine, University of Maine at Machias,
the Board of Trustees of the University of Maine System, and the State of Maine.
Because the Petitioner is not a corporation, a corporate disclosure statement is not required under Supreme Court Rule 29.6.

iii
STATEMENT RELATED PROCEEDINGS
There are no other court proceedings “directly related” to this case within the meaning of Rule
14(b)(iii).

iv
TABLE OF CONTENTS
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 3
JURISDICTION ......................................................... 3
STATUTES INVOLVED ............................................ 3
STATEMENT OF THE CASE ................................... 4
A. Maine Compels Public Employees To
Accept a “Bargaining Agent” that Speaks
on Their Behalf ................................................. 4
B. Maine Recognizes the Union as Petitioner’s
“Bargaining Agent” ........................................... 5
C. Proceedings Below ............................................ 7
REASONS FOR GRANTING THE PETITION ........ 8
I.

The Lower Courts Have Misread Knight
To Exempt State-Compelled Union Representation from Constitutional Scrutiny ........... 9

II. State-Compelled Union Representation
Cannot Be Reconciled with This Court’s
First Amendment Jurisprudence ................... 13
III. The Question Presented Is Important
and Frequently Recurring .............................. 18
IV. This Case Is the Ideal Vehicle To Clarify
Knight’s Reach and the First Amendment’s
Application in This Area ................................. 20
CONCLUSION ......................................................... 21

v
TABLE OF APPENDICES
Appendix A: Opinion, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(1st Cir. Oct. 4, 2019) ....................................... App. 1
Appendix B: Judgment, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(1st Cir. Oct. 4, 2019) ..................................... App. 13
Appendix C: Order, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Dec. 3, 2018) ...................................... App. 15
Appendix D: Judgment, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Dec. 4, 2018) ...................................... App. 28
Appendix E: Complaint, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Aug. 10, 2018) ................................... App. 30
Appendix F: Declaration of Jonathan Reisman,
Reisman v. Associated Faculties of the Univ.
of Maine, et al., (D. Me. Aug. 7, 2018) ........... App. 43
Appendix G: Maine Statutes (2018) ............. App. 47
Appendix H: Agreement Between University
of Maine System and Associated Faculties of
the Universities of Maine, MEA/NEA,
2015-2017 [Excerpts] (July 1, 2015) ............. App. 69

vi
TABLE OF AUTHORITIES
CASES
Abood v. Detroit Board of Education,
431 U.S. 209 (1977) ....................................... passim
A.L.A. Schechter Poultry Corp. v. United States,
295 U.S. 495 (1935) ................................................. 9
Bierman v. Dayton,
900 F.3d 570 (8th Cir. 2018) ........................... 11, 19
Boy Scouts of America v. Dale,
530 U.S. 640 (2000) ............................................... 15
Carter v. Carter Coal Co.,
298 U.S. 238 (1936) ................................................. 9
D’Agostino v. Baker,
812 F.3d 240 (1st Cir. 2016) ....................... 7, 12, 19
Harris v. Quinn,
134 S. Ct. 2618 (2014) ....................................... 3, 20
Heffernan v. City of Paterson,
136 S. Ct. 1412 (2016) ........................................... 17
Hill v. SEIU,
850 F.3d 861 (7th Cir. 2017) ........................... 12, 19
Janus v. Am. Fed’n of State, Cty., & Mun.
Employees, Council 31,
138 S. Ct. 2448 (2018) ................................... passim
Jarvis v. Cuomo,
660 F. App’x 72 (2d Cir. 2016) ........................ 12, 19
Knight v. Minnesota Community College Faculty
Ass’n, 571 F. Supp. 1 (D. Minn. 1982) .................... 9

vii
Knight v. Minnesota Community College Faculty
Ass’n, 460 U.S. 1048 (1983) .................................... 9
Knox v. Serv. Employees Int’l Union, Local 1000,
567 U.S. 298 (2012) ............................................... 15
Mentele v. Inslee,
916 F.3d 783 (9th Cir. 2019) ........................... 12, 19
Mentele v. Inslee, No. C15-5134-RBL, 2016 WL
3017713 (W.D. Wash. May 26, 2016) ................... 12
Minnesota State Board for Community Colleges
v. Knight, 465 U.S. 271 (1984) ...................... passim
NLRB v. Jones & Laughlin Steel Corp.,
301 U.S. 1 (1937) ................................................... 16
Pacific Gas & Elec. Co. v. Public Util. Comn’n of
Cal., 475 U.S. 1 (1986) .......................................... 15
Riley v. Nat’l Fed’n of the Blind,
487 U.S. 781 (1988) ......................................... 14, 17
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ............................................... 15
Rumsfeld v. Forum for Academic and
Institutional Rights, Inc.,
547 U.S. 47 (2006) ................................................. 16
Smith v. Arkansas State Highway Employees,
Local 1315, 441 U.S. 463 (1979) ........................... 18
Steele v. Louisville & Nashville R. Co.,
323 U.S. 192 (1944) ............................................... 16
United States v. United Foods,
533 U.S. 405 (2001) ............................................... 15

viii
Uradnik v. Inter Faculty Organization,
2018 WL 4654751 (D. Minn. Sept. 27, 2018) ....... 12
West Virginia Board of Education v. Barnette,
319 U.S. 624 (1943) ............................................... 14
Wooley v. Maynard,
430 U.S. 705 (1977) ................................................. 2
STATUTES
28 U.S.C. § 1254 ......................................................... 3
Me. Rev. Stat. Ann. tit. 26, § 1025 .................. 4, 7, 13
Me. Rev. Stat. Ann. tit. 26, § 1026 ............................ 4
Me. Rev. Stat. Ann. tit. 26, § 1027 ............................ 4
Tenn. Code. Ann. § 49-5-603 .................................... 18
OTHER AUTHORITIES
Brief for Appellees, Minnesota Community
College Faculty Ass’n v. Knight, No. 82-977
(filed Aug. 16, 1983), available at 1983 U.S.
S. Ct. Briefs LEXIS 126 ...................................... 11
Brief for Appellees, Minnesota State Board for
Community Colleges v. Knight, No. 82-898
(filed Aug. 16, 1983), available at 1983 U.S.
S. Ct. Briefs LEXIS 130 ...................................... 11

PETITION FOR WRIT OF CERTIORARI
As a condition of his employment as a public university professor, Petitioner Jonathan Reisman is compelled by Maine law to accept a labor union as his
“sole and exclusive bargaining agent” to speak for him
on what this Court has recognized to be “matters of
substantial public concern.” Janus v. Am. Fed’n of
State, Cty., & Mun. Employees, Council 31, 138 S. Ct.
2448, 2460 (2018). That state-law requirement is, as
this Court observed in Janus, “a significant impingement on associational freedoms that would not be tolerated in other contexts.” Id. at 2478. Yet the courts
below, and others to consider the issue, have refused
to subject such arrangements to any degree of constitutional scrutiny, on the mistaken view that this
Court’s decision in Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984), held
that they involve no impingement of First Amendment rights at all.
The result of those decisions is to broadly sanction
compelled representation of unwilling public employees and subsidy recipients like home healthcare workers, irrespective of their speech and associational interests. In this instance, Maine law recognizes a labor
union as representing and speaking on behalf of Professor Reisman, despite that he vehemently opposes
its positions and advocacy on issues ranging from fiscal policy to university governance. Yet the union, per
Maine law, regularly speaks for him on these issues
in collective bargaining sessions, through “meet and
discuss” sessions on matters of academic and university policy, in grievance proceedings, and elsewhere.

2
That result cannot be squared with this Court’s
First Amendment jurisprudence. The “freedom of
speech ‘includes both the right to speak freely and the
right to refrain from speaking at all.’” Janus, 138 S.
Ct. at 2465 (quoting Wooley v. Maynard, 430 U.S. 705,
714 (1977)). “The right to eschew association for expressive purposes is likewise protected.” Id. (citing
authorities). Janus considered it beyond debate that
the First Amendment bars a state from “requir[ing]
all residents to sign a document expressing support
for a particular set of positions on controversial public
issues—say, the platform of one of the major political
parties.” Id. at 2464. But that is what Maine requires
of public university faculty by assigning them a representative to take positions on a host of controversial
public issues on their behalf. And, vague references to
“labor peace” aside, no one has ever explained how
compelling public employees to accept unwanted representation furthers any compelling or legitimate
state interest.
Like with public-sector agency fees prior to Janus,
public-sector compelled representation has been assumed to be constitutional by reference to private-sector practices, “under a deferential standard that finds
no support in [the Court’s] free speech cases.” Id. at
2480. It is a striking anomaly that, following Janus,
public workers may not be compelled to subsidize a
union’s speech but may still be forced to accept that
speech, made on their behalf by a state-appointed representative, as their own.

3
That anomaly requires correction by this Court.
Even after Janus specifically identified compelledrepresentation regimes as an “impingement” of First
Amendment rights, the lower courts have misread
Knight as holding to the contrary. But Knight considered no compelled-speech or -association challenge to
compelled union representation, only the claim that
public workers had a right to be heard by the state in
certain “meet and confer” sessions with union representatives. This Court alone has the power to correct
that mistaken understanding of Knight and give “a
First Amendment issue of this importance” the consideration it deserves. Harris v. Quinn, 134 S. Ct.
2618, 2632, 2639 (2014).
OPINIONS BELOW
The First Circuit’s opinion is reported at 939 F.3d
409 and reproduced at Pet.App.1. The opinion of the
District Court for the District of Maine is reproduced
at Pet.App.15.
JURISDICTION
The First Circuit entered judgment on October 4,
2019. Pet.App.13. This Court has jurisdiction under
28 U.S.C. § 1254(1).
STATUTES INVOLVED
The relevant statutory provisions are reproduced in
the Appendix, Pet.App.47, as are relevant provisions
of the Respondents’ collective bargaining agreement,
Pet.App.70.

4
STATEMENT OF THE CASE
A.

Maine Compels Public Employees To
Accept a “Bargaining Agent” that Speaks
on Their Behalf

The State of Maine authorizes public employers to
require their employees to accept a “sole and exclusive
bargaining agent” that speaks on behalf of “employees…without regard to [their] membership in the organization certified as bargaining agent.” Me. Rev.
Stat. Ann. tit. 26, § 1025(2)(E).
For a union to become a “bargaining agent,” Maine
requires a showing that a majority of the employees
in a given bargaining unit wish for that union to represent them. Me. Rev. Stat. Ann. tit. 26, § 1025. Upon
that showing, the union “shall be recognized” by the
public university “as the sole and exclusive bargaining agent for all of the employees in the bargaining
unit.” Me. Rev. Stat. Ann. tit. 26, § 1025(2)(B).
Once certified, the “bargaining agent” is authorized
to speak for all employees within the bargaining unit,
and the public employer must bargain collectively
with that union. Me. Rev. Stat. Ann. tit. 26, §§ 1026,
1027(1)(E), (2)(B). The duty to bargain requires both
the bargaining agent and the public employer to “confer and negotiate in good faith with respect to wages,
hours, working conditions and contract grievance arbitration.” Me. Rev. Stat. Ann. tit. 26 § 1026(1)(C).
These topics are a mandatory part of the collective
bargaining process.

5
B.

Maine Recognizes the Union as
Petitioner’s “Bargaining Agent”

The Petitioner, Jonathan Reisman, is a professor of
economics and public policy at the University of
Maine at Machias, which is a public university that is
part of the University of Maine System. Pet.App.16.
Pursuant to Maine law, the Board of Trustees of the
University of Maine System (the “Board”) recognized
the Associated Faculties of the University of Maine
(the “Union”) in 1978 as the “bargaining agent” for
University of Maine employees with the authority “to
bargain collectively and exclusively on behalf of all
employees” in the “faculty bargaining unit.”
Pet.App.16; see also Pet.App.70 (providing that the
Board “recognizes” the Union “as the sole and exclusive bargaining agent for University of Main System
employees”). Even when dealing with individual employees, “[t]he Board or its officers and agents shall at
all times be cognizant of the status of the Association
as the sole and exclusive bargaining agent under the
University of Maine System Labor Relations Act for
unit members.” Pet.App.73.
In its capacity as University employees’ “bargaining
agent,” the Union speaks out on a variety of subjects.
The agreement reflects the Union’s and the Board’s
negotiations on the terms and conditions of employment of the University’s faculty, including wages,
benefits, grievances, the school year, workload, personnel files, office hours, severance, retirement,
leaves of absence, professional development, and so
on. See Pet.App.38.

6
In this role, the Union speaks on behalf of University employees, including nonmembers. For example,
in addition to barring strikes and lockouts, the agreement provides that the Union “agrees on behalf of itself and unit members that there shall be no strikes,
slow-downs or interference with the normal operation
of the University.” Pet.App.103 (emphasis added).
The agreement also requires the University to meet
with a committee of Union representatives on the Union’s request “for the purpose of discussing matters
necessary to the implementation of this Agreement.”
Pet.App.78. Topics of discussion may include “University-wide” matters, matters “related to a particular
campus,” and “[m]atters of common concern.”
Pet.App.78–79.
The Union is also involved in setting policy through
its role in the grievance process, as specified in the
agreement. The “bargaining agent” has the right to
participate in every stage of grievance proceedings,
even when an employee rejects the Union’s representation with respect to a grievance. Pet.App.97. And
only the Union has the right to appeal grievances to
the University Chancellor and ultimately into arbitration. Pet.App.92–93.
Professor Reisman disagrees with the Union’s positions and advocacy on many issues, including issues
related to terms and conditions of employment and to
governance of the University, and for that reason he
resigned his membership. See Pet.App.38, 45. Yet because he is employed on the faculty of the University

7
of Maine, state law recognizes the Union as his “bargaining agent,” compelling him to associate with it
and to suffer it to speak for him, including on issues
where he disagrees with its positions. See
Pet.App.36–38, 44–46; Me. Rev. Stat. Ann. tit. 26,
§ 1025(2)(B).
C.

Proceedings Below

On August 10, 2018, Professor Reisman filed a complaint challenging the compelled-representation regime maintained by the Respondents, alleging that it
violates his rights under the First and Fourteenth
Amendments to be free from compelled speech and
compelled association. Pet.App.39–40. He then moved
for a preliminary injunction.
The district court denied his preliminary injunction
motion and dismissed the action, concluding that
Prof. Reisman’s claim was foreclosed under Minnesota State Board for Community Colleges v. Knight,
465 U.S. 271 (1984), and D’Agostino v. Baker, 812
F.3d 240 (1st Cir. 2016), which in turn viewed this
Court’s decisions in Abood v. Detroit Board of Education, 431 U.S. 209 (1977), and Knight as authorizing
compelled union representation. Pet.App.20–21.
Professor Reisman appealed. The First Circuit affirmed the district court’s decision, holding that, because the Union represents all members of the bargaining unit, Maine’s compelled-representation
scheme was approved by Knight and worked no injury
to Professor Reisman’s First Amendment rights.
Pet.App.10–12.

8
REASONS FOR GRANTING THE PETITION
The petition presents a question of profound importance that has never received careful consideration by this Court. The appointment of an exclusive
representative or “agent” to speak on behalf of public
employees is an obvious impingement on their First
Amendment rights, as the Court recognized in Janus.
Yet the lower courts understand the Court to have
held, in Knight, that such regimes implicate no First
Amendment interests at all. Knight, however, had no
occasion to pass on that issue, because it was not
raised or argued. As a result, public workers whom
Janus recognized to have the right to be free from subsidizing a labor union’s speech may nonetheless be
compelled to enter an expressive association with a
union and to suffer it to speak for them, no matter
their disagreement with the words it puts in their
mouths.
That is, if anything, a more severe impingement on
First Amendment rights than that disapproved in Janus, and it is unjustified by any state interest, let
alone the compelling one required by strict or exacting
scrutiny. The Court should give this important issue
the full and fair consideration that it deserves. This
case, which challenges a typical exclusive-representation regime and presents the constitutional issue
squarely, is the ideal vehicle to do so.

9
I.

The Lower Courts Have Misread Knight
To Exempt State-Compelled Union
Representation from Constitutional
Scrutiny

The court below, like others, viewed this Court’s decision in Knight as holding that state laws compelling
public workers to accept an unwanted representative
that lobbies on their behalf do not even impinge First
Amendment rights. Knight, however, involved a
claimed right to be heard by the government, not any
kind of First Amendment objection to compelled union representation. It has literally nothing to say on
that latter issue.
Knight was, to be sure, a challenge to provisions of
a state statute similar to those challenged here. The
plaintiffs, college instructors, brought three claims,
the first two of which were subject to summary affirmance by this Court. See Knight v. Minnesota Community College Faculty Ass’n, 460 U.S. 1048 (1983).
The first claim was that the state, by appointing a
union as exclusive representative, “impermissibly
delegated its sovereign power” in contravention of decisions like A.L.A. Schechter Poultry Corp. v. United
States, 295 U.S. 495 (1935), and Carter v. Carter Coal
Co., 298 U.S. 238 (1936). Knight v. Minnesota Community College Faculty Ass’n, 571 F. Supp. 1, 3–4 (D.
Minn. 1982). And the second was “that compulsory
fair share fees…result in forced association with a political party,” a claim that the district court held was
controlled by this Court’s decision upholding agency-

10
fee arrangements in Abood v. Detroit Board of Education, 431 U.S. 209 (1977). The district court rejected
both of those claims, 571 F. Supp. at 5, 7, and this
Court summarily affirmed, see Knight, 465 U.S. at
278–79 (discussing lower court decision and summary
affirmance).
The third claim, which this Court heard on the merits, involved the statute’s “meet and confer” process in
which public employers exchange views with an exclusive representative “on policy questions relating to
employment but outside the scope of mandatory bargaining.” Id. at 273. The district court had held that
the limitation restricting participation in “meet and
confer” sessions to representatives selected by the union violated the plaintiffs’ First Amendment rights.
571 F. Supp. at 12.
Accordingly, as this Court stated in reviewing that
decision: “The question presented in this case is
whether this restriction on participation in the nonmandatory-subject exchange process violates the constitutional rights of professional employees within the
bargaining unit who are not members of the exclusive
representative and who may disagree with its views.”
465 U.S. at 273. In answering that question, the
Court held, first, that the First Amendment confers
“no constitutional right to force the government to listen to [the instructors’] views” and, second, that “Minnesota’s restriction of participation in ‘meet and confer’ sessions to the faculty’s exclusive representative”
did not infringe “[the instructors’] speech and associational rights.” Id. at 283, 288. The majority decision

11
does not discuss or even cite compelled-speech or compelled-association precedents other than Abood.
That’s because there was no First Amendment challenged to compelled representation. The instructors’
principal brief recognized that the “constitutionality
of exclusive representation” was undecided, but expressly “pretermit[ed]” argumentation on that issue.
Brief for Appellees, Minnesota State Board for Community Colleges v. Knight, No. 82-898 (filed Aug. 16,
1983), at 46–47, available at 1983 U.S. S. Ct. Briefs
LEXIS 130. A separate brief filed by the instructors
did challenge exclusive representation, but only on
nondelegation grounds. Brief for Appellants, Minnesota Community College Faculty Ass’n v. Knight, No.
82-977 (filed Aug. 16, 1983), available at 1983 U.S. S.
Ct. Briefs LEXIS 126. No First Amendment challenge
to compelled representation having been raised, the
Court had no reason to consider the matter.
Nonetheless, the lower courts have come to regard
Knight as controlling on that point. The Eighth Circuit, for example, recently held in Bierman v. Dayton
that a “State has ‘in no way’ impinged” on associational rights “by recognizing an exclusive negotiating
representative,” 900 F.3d 570, 574 (8th Cir. 2018),
quoting language from Knight that actually addressed “Minnesota’s restriction of participation in
‘meet and confer’ sessions to the faculty’s exclusive
representative.” 465 U.S. at 288 (emphasis added).
The First Circuit committed the same error in the
chief precedent underpinning the decision below, conflating Knight’s language upholding that restriction

12
on participation with approval of compelled representation. D’Agostino v. Baker, 812 F.3d 240, 243 (1st Cir.
2016). So too the Seventh Circuit, relying on the same
language. Hill v. SEIU, 850 F.3d 861, 864 (7th Cir.
2017); see also Jarvis v. Cuomo, 660 F. App’x 72, 74
(2d Cir. 2016) (same); Uradnik v. Inter Faculty Organization, 2018 WL 4654751, at *2 (D. Minn. Sept. 27,
2018); Mentele v. Inslee, No. C15-5134-RBL, 2016 WL
3017713, at *4 (W.D. Wash. May 26, 2016). Thus, the
lower courts regard themselves as bound by what is,
at most, off-hand dicta, taken out of context, on an issue the Court had no occasion to consider.
Notably, the one court to consider the compelledrepresentation issue from first principles recognized
that this prevailing view of Knight is untenable. See
Mentele v. Inslee, 916 F.3d 783 (9th Cir. 2019). Acknowledging that Knight’s reliance on the overruled
Abood casts doubt on its vitality, the Ninth Circuit accepted that compelled representation appears to impinge First Amendment rights but held that the
state’s interest in “labor peace,” as recognized by
Abood, justified the intrusion. Id. at 790–91. Thus,
the only court ever to attempt meaningful consideration of this issue understood that the prevailing view
of Knight—compelled representation does not even
impinge First Amendment rights—is inconsistent
with this Court’s free-speech cases, and it could only
uphold compelled union representation by relying on
an unsound doctrine drawn from an overruled decision. See infra at 16–18 (discussing “labor peace” doctrine).

13
With that one exception, however, the lower courts
have declined to subject compelled-representation regimes to any degree of constitutional scrutiny, taking
off the table a profoundly important question that has
never received any deliberate consideration by this
Court. Unless and until this Court clarifies the scope
of its holding in Knight, the constitutionality of compelled representation will never receive meaningful
review.
II.

State-Compelled Union Representation
Cannot Be Reconciled with This Court’s
First Amendment Jurisprudence

Review of that issue is warranted because subjecting public workers to state-compelled union representation is at odds with ordinary First Amendment doctrine. Indeed, the Court recently recognized as much
when it observed, correctly, that such schemes constitute “a significant impingement on associational freedoms that would not be tolerated in other contexts.”
Janus, 138 S. Ct. at 2478. And if Janus stands for anything, it is that there is no labor-relations exception
to the First Amendment.
When state law appoints a union to represent unwilling public workers, it compels their speech. The
Maine statute here recognizes the Union as the Petitioner’s “bargaining agent” and expressly provides
that, in that role, the Union speaks “for all of the employees,” including those like the Petitioner who have
declined to join the Union and object to its speech. Me.
Rev. Stat. Ann. tit. 26, § 1025(2)(B). That speech by
the Union is regarded as the speech of the employees

14
themselves. See, e.g., Pet.App.103 (memorializing a
representation the Union made “on behalf” of employees). So, when the Union speaks, it is speaking for the
Petitioner, putting words in his mouth. See Janus,
138 S. Ct. at 2474 (“[W]hen a union negotiates with
the employer or represents employees in disciplinary
proceedings, the union speaks for the employees….”).
And, after Janus, there can be no dispute that this
speech concerns “matters of substantial public concern,” id. at 2460, including public-sector wages and
benefits and the governance of public institutions.
The state’s compulsion of the Petitioner’s speech on
these issues is, to say the least, an impingement of his
First Amendment right to be free from compelled
speech. “Forcing free and independent individuals to
endorse ideas they find objectionable is always demeaning, and for this reason, one of [the Court’s]
landmark free speech cases said that a law commanding ‘involuntary affirmation’ of objected-to beliefs
would require ‘even more immediate and urgent
grounds’ than a law demanding silence.” Id. at 2464
(quoting West Virginia Board of Education v. Barnette, 319 U.S. 624, 633 (1943)). For that reason, government-compelled speech is subject to strict scrutiny. Riley v. Nat’l Fed’n of the Blind, 487 U.S. 781,
800–01 (1988).
Likewise, compelled union representation impinges
on associational rights. An association “is protected
by the First Amendment’s expressive associational
right” if the parties come together to “engage in some
form of expression, whether it be public or private.”

15
Boy Scouts of America v. Dale, 530 U.S. 640, 648
(2000). That is, of course, the entire purpose of the
Union’s appointment as the Petitioner’s “bargaining
agent”—to speak on behalf of him and other employees. Compare United States v. United Foods, 533 U.S.
405, 411–12 (2001) (finding violation where the compelled speech “itself, far from being ancillary, is the
principal object of the regulatory scheme”).
“Freedom of association…plainly presupposes a
freedom not to associate.” Roberts v. United States
Jaycees, 468 U.S. 609, 623 (1984); see also Pacific Gas
& Elec. Co. v. Public Util. Comm’n of Cal., 475 U.S. 1,
12 (1986) (plurality opinion) (“[F]orced associations
that burden protected speech are impermissible”).
Compelled association is therefore subject, at a minimum, to “exacting scrutiny” and so must at least
“serve a compelling state interest that cannot be
achieved through means significantly less restrictive
of associational freedoms.” Knox v. Serv. Employees
Int’l Union, Local 1000, 567 U.S. 298, 310 (2012).
Compelling public workers to submit to representation by a labor union fails either degree of scrutiny,
strict or exacting, because it is unsupported by any
compelling state interest. There is no interest in
avoiding “free-riders” at play, because there is no possible argument that the Petitioner and other nonmembers are seeking to “enjoy[] the benefits of union
representation without shouldering the costs,” Janus,
138 S. Ct. at 2466. And while the Union has a duty of
fairness to all employees, that is no more than a nondiscrimination provision appropriately reflecting the

16
state’s own obligation, as the counterparty in bargaining, not to discriminate on the basis of union membership. See Steele v. Louisville & Nashville R. Co., 323
U.S. 192, 202 (1944) (analogizing a private-sector union’s fair-representation duty to the duty “the Constitution imposes upon a legislature to give equal protection to the interests of those for whom it legislates”);
Rumsfeld v. Forum for Academic and Institutional
Rights, Inc., 547 U.S. 47, 69 (2006) (recognizing that
government may not “impose penalties or withhold
benefits based on membership in a disfavored group”
where doing so “ma[kes] group membership less attractive”). Indeed, the Board forbids the Union from
discriminating on the basis of Union membership in
the same provision that bars it from discriminating
based on “race, color, religion, sex,” etc. Pet.App.103.
As for any state interest in “labor peace,” it is neither compelling nor served in any tailored fashion by
forcing public employees to accept union representation. Janus assumed, without deciding, that a state
might have a compelling interest in avoiding “interunion rivalries” and “conflicting demands from different unions” sufficient to overcome First Amendment
objections. 138 S. Ct. at 2466 (quoting Abood, 431 U.S.
at 220–21)). But, like the rest of Abood, this “labor
peace” concept was borrowed from another area of the
Court’s jurisprudence—concerning Congress’s Commerce Clause power to regulate economic affairs, e.g.,
NLRB v. Jones & Laughlin Steel Corp., 301 U.S. 1,
41–42 (1937)—and, without any consideration, given
a second life as a First Amendment doctrine. 431 U.S.

17
at 220–21. That the promotion of labor peace might
justify congressional regulation of economic affairs,
subject only to rational-basis review, says nothing
about whether labor-peace interests suffice to clear
the higher bar of First Amendment scrutiny. They do
not. The Court’s cases recognize that the First
Amendment does not permit government to “substitute its judgment as to how best to speak for that of
speakers and listeners” or to “sacrifice speech for efficiency.” Riley, 487 U.S. at 791, 795. Yet that is, in a
nutshell, the labor-peace rationale.
In any instance, labor peace provides no justification for mandating union representation. Irrespective
of exclusive-representation regimes, the First Amendment affords public workers a near-absolute right to
speak out themselves on matters of public concern
and to join alternative labor organizations, just like
they may enter into any number of private associations free from government retaliation. See, e.g., Heffernan v. City of Paterson, 136 S. Ct. 1412, 1416
(2016). Even when some other group has been recognized as the exclusive representative, such organizations can still make demands on public employers,
spark rivalries, and even foster dissention within the
workforce—those potential ills are a consequence of
public workers’ well-recognized First Amendment
rights and are not addressed in any way by exclusiverepresentation requirements. In this respect, there is
a fundamental disconnect between compelling unwilling public workers to accept a labor union as their representative and any claimed interest in labor peace.

18
At a minimum, any state interest in promoting labor peace can readily be achieved through means significantly less restrictive of speech and associational
freedoms than compelling public workers to submit to
union representation—namely, by declining to bargain with rival unions. See Smith v. Arkansas State
Highway Employees, Local 1315, 441 U.S. 463, 465
(1979) (“[T]he First Amendment does not impose any
affirmative obligation on the government to listen….”); Tenn. Code. Ann. § 49-5-603 (providing that
“professional employees…have the right to refrain”
from “negotiat[ing] through representatives”).
For all of these reasons, the Court’s review is required to cure the conflict between the lower courts’
misunderstanding of Knight as exempting compelledrepresentation regimes from constitutional scrutiny
and this Court’s First Amendment jurisprudence.
III. The Question Presented Is Important and
Frequently Recurring
The importance of the question whether state-compelled union representation passes constitutional
muster cannot be gainsaid. In the wake of Janus, it is
a striking anomaly that public-sector workers, now
free from compelled subsidization of union advocacy
on “matters of substantial public concern,” 138 S. Ct.
at 2460, may still be compelled to accept that same
advocacy as their own and compelled to associate with
a union for the sole purpose of facilitating that advocacy. A compelled-representation regime is literally “a
law commanding ‘involuntary affirmation’ of objected-to beliefs.” Id. at 2464 (quoting Barnette, 319

19
U.S. at 633). This intrusion on workers’ First Amendment rights—and ultimately their rights of freedom
of thought and conscience—is greater than that at issue in Janus and calls for review.
The question presented is also one that arises frequently. No fewer than five of the courts of appeal
have addressed that issue over the past two years.
Mentele v. Inslee, 916 F.3d 783 (9th Cir. 2019); Bierman v. Dayton, 900 F.3d 570 (8th Cir. 2018); Hill v.
SEIU, 850 F.3d 861 (7th Cir. 2017); D’Agostino v.
Baker, 812 F.3d 240 (1st Cir. 2016); Jarvis v. Cuomo,
660 F. App’x 72 (2d Cir. 2016). Each of those courts
except in Mentele, as discussed above, has punted on
the fundamental constitutional question, believing it
to be controlled by Knight. Even so, additional challenges—many of them brought following this Court’s
decision in Janus—are pending in the lower courts.
Given the importance of the issue to workers forced
against their will to accept union representation, the
fact that this Court has never squarely addressed the
constitutionality of that practice, and the Court’s
recognition in Janus that such regimes do impinge
First Amendment rights, it is inevitable that there
will be more cases raising that same issue. Unless and
until this Court passes judgment on compelled union
representation, workers, municipalities, states, and
the lower courts will continue to devote significant resources to litigation that this Court can and should
resolve in one fell swoop.

20
IV. This Case Is the Ideal Vehicle To Clarify
Knight’s Reach and the First Amendment’s
Application in This Area
This case presents an ideal vehicle for the Court to
finally resolve an issue of overriding importance. It
squarely presents the issue of whether the First
Amendment permits a state to recognize a labor union
as the representative and “bargaining agent” of public
workers who have declined to join the union and object to its speech on their behalf. See Pet.App.39–40
(claim challenging just that). The courts below passed
on that precise issue. Pet.App.10–11, Pet.App.20–26.
And it is dispositive of the merits of this appeal. There
is no issue regarding the Petitioner’s standing, mootness, or any other justiciability concern.
Moreover, this case involves the typical factual scenario in which this issue arises. The Petitioner is a
state employee, and it is state employees who are by
far the most numerous subjects of unwanted union
representation under state law. By contrast, other recent challenges to exclusive-representation regimes
have involved subsidy recipients like home healthcare
workers, raising a host of issues separate from the
core one of whether states may compel representation
at all. Compare Harris v. Quinn, 134 S. Ct. 2618
(2014) (challenge to agency fees by subsidy recipients), with Janus, 138 S. Ct. at 2461 (challenge to
agency fees by state employee). Hearing this case
would permit the Court to address the question presented in the most common factual context in which
it is likely to arise and thereby provide the clearest

21
possible guidance to the lower courts, avoiding the
confusion that may ensue from a decision premised on
idiosyncratic facts.
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
ROBERT ALT
DANIEL DEW
THE BUCKEYE INSTITUTE
88 East Broad Street
Suite 1120
Columbus, Ohio 43215
(614) 224-4422

ANDREW M. GROSSMAN
Counsel of Record
MARK W. DELAQUIL
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

Counsel for Petitioner
JANUARY 2020

APPENDIX

APPENDIX

App. i
TABLE OF APPENDICES
Appendix A: Opinion, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(1st Cir. Oct. 4, 2019) ................................... App. 1
Appendix B: Judgment, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(1st Cir. Oct. 4, 2019) ................................. App. 13
Appendix C: Order, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Dec. 3, 2018) .................................. App. 15
Appendix D: Judgment, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Dec. 4, 2018) .................................. App. 28
Appendix E: Complaint, Reisman v. Associated
Faculties of the Univ. of Maine, et al.,
(D. Me. Aug. 10, 2018) ............................... App. 30
Appendix F: Declaration of Jonathan Reisman,
Reisman v. Associated Faculties of the Univ.
of Maine, et al., (D. Me. Aug. 7, 2018) ....... App. 43
Appendix G: Maine Statutes (2018) ......... App. 47
Appendix H: Agreement Between University
of Maine System and Associated Faculties of
the Universities of Maine, MEA/NEA,
2015-2017 [Excerpts] (July 1, 2015) ......... App. 70

App. 1
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
___________________
No. 18-2201
___________________
JONATHAN REISMAN,
Plaintiff, Appellant,
v.
ASSOCIATED FACULTIES OF THE
UNIVERSITY OF MAINE; UNIVERSITY OF
MAINE AT MACHIAS; BOARD OF TRUSTEES
OF THE UNIVERSITY OF MAINE;
and THE STATE OF MAINE,
Defendants, Appellees.
_________________________________________________
Appeal from the U.S. District Court for the District
of Maine (Hon. Jon D. Levy, U.S. District Judge)
_________________________________________________
OPINION
Before THOMPSON, SELVA, and BARRON, Circuit
Judges.
Andrew M. Grossman, with whom Richard B.
Raile, Renee M. Knudsen, BakerHostetler LLP, Robert Alt, Daniel Dew, and The Buckeye Institute were
on brief, for appellant.

App. 2
Jacob Karabell, with whom John M. West,
Bredhoff & Kaiser, P.L.L.C., Jason Walta, and National Education Association were on brief, for appellee Associated Faculties of the University of Maine.
Linda D. McGill, with whom Tara A. Walker and
Bernstein, Shur, Sawyer & Nelson, P.A. were on brief,
for appellees University of Maine at Machias and
Board of Trustees of the University of Maine.
Susan P. Herman, Deputy Attorney General, with
whom Aaron M. Frey, Attorney General, and Christopher C. Taub, Assistant Attorney General, were on
brief, for appellee State of Maine.
___________________
October 4, 2019
___________________
BARRON, Circuit Judge.
Jonathan Reisman, an economics professor at the
University of Maine at Machias, seeks to invalidate a
Maine statute that governs collective bargaining between the state’s university system and its faculty on
the ground that the statute violates the First Amendment of the United States Constitution. The District
Court granted the defendants’ motion to dismiss. We
affirm.
I.
The Maine statute that Reisman challenges is the
University of Maine System Labor Relations Act, Me.

App. 3
Stat. tit. 26, §§ 1021-1037. Enacted in 1975, the statute is modeled on the National Labor Relations Act,
29 U.S.C. §§ 151-169, and extends collective bargaining rights to employees of the state’s universities.
The statute divides university employees into various “bargaining units” based on their occupational
groups. See tit. 26, § 1024-A. The faculty in the university system make up one particular bargaining
unit, while “[s]ervice and maintenance” employees,
for example, constitute another. Id.
To facilitate labor negotiations, the statute provides, among other things, that a union that receives
majority support within “a bargaining unit shall be
recognized by the university, academy or community
colleges as the sole and exclusive bargaining agent for
all of the employees in the bargaining unit.” Id.
§ 1025(2)(B). Once so recognized, that union is the
bargaining unit’s exclusive agent to bargain with the
university system “with respect to wages, hours,
working conditions and contract grievance arbitration.” Id. § 1026(1)(C).
No employee bears an obligation to join a union,
see id. § 1023, and, after Janus v. American Federation of State, County, & Municipal Employees, Council 31, 138 S. Ct. 2448 (2018), nonmember employees
are not obliged to pay agency fees to the union that
serves as their bargaining unit’s bargaining agent.
However, the statute does provide that the bargaining
agent “is required to represent all…employees within
the unit without regard to membership in the organization.” tit. 26, § 1025(2)(E).

App. 4
The Associated Faculties of the Universities of
Maine (“AFUM” or “the Union”) has represented the
faculty bargaining unit for Reisman’s university since
1978. Reisman “resigned his membership in [AFUM]
because he opposes many of the positions [AFUM] has
taken, including on political and policy matters.” (Internal quotation and citation omitted).
On August 10, 2018, Reisman filed a complaint in
the United States District Court for the District of
Maine. His complaint alleges that the statute violates
his First Amendment rights because, “[b]y designating the Union as [his] exclusive representative,” the
statute necessarily “compels [him] to associate with
the Union[,]…compels [him] to speak and to petition
government,…[and] attributes the Union’s speech
and petitioning to [him].” Reisman also requests a
preliminary “injunction barring Defendants from recognizing the Union as [his] exclusive representative…[and] barring Defendants from affording preferences to members of the Union.”
On December 3, 2018, the District Court dismissed
Reisman’s suit under Federal Rule of Civil Procedure
12(b)(6). The next day, Reisman filed a notice of appeal. On December 14, 2018, Reisman filed a motion
asking this Court for a summary disposition. He argued that this Circuit’s binding precedent required us
to affirm the District Court’s decision and explained
that a summary disposition would allow him to petition the Supreme Court for review more quickly. On
February 6, 2019, we denied Reisman’s motion. This
appeal from the District Court’s dismissal of his

App. 5
claims then followed. Our review is de novo. See Cunningham v. Nat’l City Bank, 588 F.3d 49, 52 (1st Cir.
2009); see also Doherty v. Merck & Co., 892 F.3d 493,
497 (1st Cir. 2018) (noting that “challenges to the constitutionality” of state statutes are reviewed de novo).
II.
Reisman first contends that, under the statute, as
a faculty member of the university he must accept
AFUM as his personal representative by virtue of its
being the exclusive bargaining agent for his bargaining unit. Reisman then argues that by forcing him to
accept AFUM as his personal representative, the statute impermissibly burdens his First Amendment
speech and associational rights, because it permits
AFUM to speak for him when he does not wish for it
do so and compels him to associate with AFUM when
he does not wish to do so. His argument relies, in large
part, on Janus, in which the Supreme Court held that
“public sector agency-shop arrangements violate the
First Amendment.” 138 S. Ct. at 2478. According to
Reisman, “the logic of Janus, as well as its application
of that logic to the specific question of compelled union
representation” demonstrates the constitutional
problem with Maine’s statute, though he is less clear
in identifying the precise remedy that he seeks for the
claimed violation.
Setting the question of remedy to the side, the defendants respond in part by arguing that Janus is
plainly distinguishable, as it involved a First Amendment challenge to a statutory requirement that a public employee pay an agency fee to a union serving as

App. 6
the exclusive bargaining agent of a bargaining unit.
See id. at 2459-60. There is, the defendants, contend,
no comparable forced association or speech at issue
here, as is shown in our decision in D’Agostino v.
Baker, 812 F.3d 240, 244 (1st Cir. 2016) (“[E]xclusive
bargaining representation by a democratically selected union does not, without more, violate the right
of free association on the part of dissenting non-union
members of the bargaining unit.”).
We will return to the question of Janus’s reach in
a moment. But, for present purposes, it is enough to
focus on the defendants’ additional contention that
the statute, fairly read, simply does not support the
premise of Reisman’s constitutional challenge -- that
it designates AFUM as his personal representative.
In contending otherwise, Reisman points out that
the statute states that an exclusive bargaining agent
must “represent all the university…employees within
the [bargaining] unit without regard to membership
in the organization.” Me. Stat. tit. 26, § 1025(2)(E). He
emphasizes, too, that the statute provides that “one of
[the] primary purposes” of a “[b]argaining agent” is
“the representation of employees in their employment
relations with employers.” Id. § 1022(1-B). And finally, Reisman notes that, under the statute, a union
becomes an exclusive bargaining agent for a bargaining unit only when “a majority of…employees in an
appropriate bargaining unit…wish to be represented
for the purpose of collective bargaining.” Id. § 1025(1).
It is on the basis of these provisions that Reisman
seeks to make the case that once AFUM became the

App. 7
exclusive bargaining agent for his bargaining unit,
the statute transformed it, by operation of law, into
his personal representative, regardless of whether he
agreed with its positions or whether he wished to associate with it. And thus, given his reading of the statute, he contends that it follows from Janus that the
statute -- by forcing him to associate with AFUM -violates the First Amendment no less than the statutory requirement to pay an agency fee that the Court
struck down in that case.
Yet, we must read the individual provisions of the
statute, including the provisions that Reisman seizes
upon to mount his constitutional challenge, in the
context of the statute as a whole and not in isolation.
See Dickau v. Vt. Mut. Ins. Co., 107 A.3d 621, 628
(Me. 2014) (“[W]e examine the entirety of the statute,
‘giving due weight to design, structure, and purpose
as well as to aggregate language.’” (quoting Banknorth, N.A. v. Hart (In re Hart), 328 F.3d 45, 48 (1st
Cir. 2003))). And, when we do, we conclude that the
defendants have the better interpretation.
The statute repeatedly makes clear that a union
that acts as an exclusive bargaining agent is “the representative of a bargaining unit.” tit. 26, § 1025(2)(A)
(emphasis added); see also id. § 1025(2)(B) (“The bargaining agent certified as representing a bargaining
unit shall be recognized by the university…as the sole
and exclusive bargaining agent for all of the employees in the bargaining unit.” (emphasis added)); id.
§ 1037(1) (“The university, academy or community
college shall provide to a bargaining agent access to

App. 8
members of the bargaining unit that the bargaining
agent exclusively represents.” (emphasis added)).
Moreover, the statute contains a number of provisions
that preserve the rights of every employee to refrain
from joining a union without fear of discrimination,
see id. § 1023(2),1 and to present their grievances to
the university system without obtaining the permission of the bargaining agent, see id. § 1025(2)(E) (noting that an “employee may present at any time that
employee’s grievance to the employer and have that
grievance adjusted without the intervention of the
bargaining agent,” so long as the requested relief is
consistent with the collective bargaining agreement
and a union representative is “given reasonable opportunity to be present” at the meeting). In addition,
to ensure that no employee is discriminated against
during collective bargaining on account of their union
membership, the statute clarifies that the bargaining
agent must bargain on behalf of all “employees within
the unit without regard to membership in the organization.” Id.
Considered in context, then, § 1025(2)(E) is not
properly read to designate AFUM as Reisman’s personal representative, as he contends. Rather, that
provision merely makes clear that a union, once it becomes the exclusive bargaining agent for a bargaining
unit, must represent the unit as an entity, and not
The statute prohibits any “person” from acting to “interfere
with, intimidate, restrain, coerce or discriminate against [an]
…employee…in the free exercise of [his] right[], given by the section, to voluntarily…not join a union.” Id. § 1023.

1

App. 9
only certain of the employees within it, and then
solely for the purposes of collective bargaining. Nor
are the other provisions that Reisman relies on
properly read to support his contention. In fact, their
plain terms accord with this more limited understanding of the statute, see id. § 1022(1-B) (noting
that a bargaining agent “has as one of its primary purposes the representation of employees in their employment relations with employers” (emphasis
added)); id. § 1025(1) (stating that an “employee organization” may be voluntarily recognized as a unit’s
bargaining agent when it “alleg[es] that a majority of
the…employees in an appropriate bargaining
unit…wish to be represented for the purpose of collective bargaining” (emphasis added)).
If there were any doubt about the correctness of
this construction, moreover, we would be in no position to discard it in favor of Reisman’s. The text of the
statute, when considered in its entirety, by no means
compels his view, and the Attorney General of Maine
plausibly contends that, under the statute, “the union
is the agent for the bargaining unit, which is a distinct
entity separate from the individual employees.” See
Forsyth Cty. v. Nationalist Movement, 505 U.S. 123,
131 (1992) (“In evaluating [appellant’s] facial challenge, we must consider the [state’s] authoritative
constructions of the ordinance, including its own implementation and interpretation of it.”); Ward v. Rock
Against Racism, 491 U.S. 781, 795 (1989) (“Administrative interpretation and implementation of a regulation are, of course, highly relevant to our analysis.”).

App. 10
Reisman does attempt to advance an alternative
challenge in which he contends that, even if the statute merely makes the union the representative of his
bargaining unit for purposes of collective bargaining,
it still impermissibly burdens his First Amendment
rights. He argues that the distinction between having
a union represent a bargaining unit as an entity in
collective bargaining and having it represent the employees within the unit individually is “immaterial because…the representation of the ‘unit as a whole’ infringes the rights of all non-consenting members of
that unit.” (Internal citation omitted).
But, the Supreme Court’s decision in Minnesota
State Board for Community Colleges v. Knight, 465
U.S. 271 (1984), which we cited favorably in response
to a similar challenge in D’Agostino, 812 F.3d 240,
would appear to dispose of this contention rather
clearly. The Supreme Court in Knight rejected a First
Amendment challenge to a Minnesota law that provided for “exclusive representation of community college faculty,” 465 U.S. at 278, for purposes of collective bargaining and “on matters related to employment that are outside the scope of mandatory negotiations,” id. at 274. We explained in D’Agostino that
Knight held that there is “no violation of associational
rights by an exclusive bargaining agent speaking for
their entire bargaining unit when dealing with the
state even outside collective bargaining.” 812 F.3d at
243 (emphases added). And, as for Reisman’s apparent compelled speech claim, D’Agostino found that

App. 11
Knight disposed of such a claim, too, for reasons worth
quoting in full:
No matter what adjective is used to characterize it, the relationship [between a bargaining
unit and a bargaining agent] is one that is
clearly imposed by law, not by any choice on a
dissenter’s part, and when an exclusive bargaining agent is selected by majority choice, it
is readily understood that employees in the
minority, union or not, will probably disagree
with some positions taken by the agent answerable to the majority. And the freedom of
the dissenting appellants to speak out publicly on any union position further counters
the claim that there is an unacceptable risk
the union speech will be attributed to them
contrary to their own views; they may choose
to be heard distinctly as dissenters if they so
wish, and as we have already mentioned the
higher volume of the union’s speech has been
held to have no constitutional significance.
Id. at 244.
To be sure, D’Agostino was decided prior to Janus.
However, we are obliged to follow circuit precedent
unless undermined by intervening Supreme Court
precedent or some other compelling authority. See
United States v. Barbosa, 896 F.3d 60, 74 (1st Cir.
2018), cert. denied, 139 S. Ct. 579 (2018). And, as Janus focuses on the unconstitutionality of a statute
that requires a bargaining unit member to pay an
agency fee to her unit’s exclusive bargaining agent,

App. 12
see 138 S. Ct. at 2478, we cannot say that precedent
provides us with a basis for disregarding D’Agostino.
In any event, to the extent that Reisman adverted to
this alternative theory in his opening brief, as opposed to merely in his reply brief and at oral argument, see Aulson v. Blanchard, 83 F.3d 1, 7 (1st Cir.
1996) (“[R]elief from an appellate court, requested for
the first time in a reply brief, is ordinarily denied as
a matter of course.”); Bernardo ex rel. M & K Eng’g,
Inc. v. Johnson, 814 F.3d 481, 492 n.17 (1st Cir. 2016)
(noting that contentions “raised [] for the first time at
oral argument…[are] waived”), he has waived it for
lack of development on appeal. See United States v.
Zannino, 895 F.2d 1, 17 (1st Cir. 1990) (“[I]ssues adverted to in a perfunctory manner, unaccompanied by
some effort at developed argumentation, are deemed
waived.”).
III.
The District Court’s judgment is affirmed.

App. 13
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
___________________
No. 18-2201
___________________
JONATHAN REISMAN,
Plaintiff, Appellant,
v.
ASSOCIATED FACULTIES OF THE
UNIVERSITY OF MAINE; UNIVERSITY OF
MAINE AT MACHIAS; BOARD OF TRUSTEES
OF THE UNIVERSITY OF MAINE;
and THE STATE OF MAINE,
Defendants, Appellees.
_________________________________________________
Appeal from the U.S. District Court for the District
of Maine (Hon. Jon D. Levy, U.S. District Judge)
_________________________________________________
JUDGMENT
Entered: October 4, 2019
This cause came on to be heard on appeal from the
United States District Court for the District of Maine
and was argued by counsel.

App. 14
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The District
Court’s judgment is affirmed.
By the Court:
Maria R. Hamilton, Clerk

App. 15
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
JONATHAN REISMAN
Plaintiff
v.
ASSOCIATED
FACULTIES OF THE
UNIVERSITY OF
MAINE, UNIVERSITY
OF MAINE AT
MACHIAS, and the
BOARD OF TRUSTEES
OF THE UNIVERSITY
OF MAINE SYSTEM

1:18-cv-00307-JDL

Defendants, and
STATE OF MAINE
Intervenor.
ORDER ON DEFENDANTS’ MOTIONS TO
DISMISS AND PLAINTIFF’S MOTION FOR
PRELIMINARY INJUNCTION
Jonathan Reisman, a professor at the University
of Maine at Machias, challenges a state law which authorizes a faculty union elected by a majority of employees, to bargain collectively and exclusively on behalf of all employees as a violation of his First Amendment rights of speech and association. Reisman has

App. 16
moved for a preliminary injunction that would enjoin
the Associated Faculties of the University of Maine,
the union that represents Maine’s public university
faculty, from holding itself out as his representative,
and that would enjoin the board of the University of
Maine System from regarding the union as his representative and agent. The Defendants have moved to
dismiss Reisman’s complaint under Fed. R. Civ. P.
12(b)(6) for failure to state a claim upon which relief
may be granted.
I. BACKGROUND
The University of Maine System Labor Relations
Act (the “Act”), 26 M.R.S.A. § 1021, et seq. (West
2018), establishes the collective bargaining rights of
the employees of Maine’s public institutions of higher
education. Plaintiff Jonathan Reisman is one such
employee, serving as a professor of economics at the
University of Maine at Machias (the “University”). He
contends that the Act violates his First Amendment
rights of free speech and association by enabling the
Defendant Associated Faculties of the University of
Maine (the “Union”), having been elected by a majority of employees as the bargaining agent, to bargain
collectively and exclusively on behalf of all employees
who comprise the bargaining unit. Reisman is not,
however, a member of the Union and he disagrees
with its positions on various issues of public import.
The Act provides that a majority of employees in a
bargaining unit may choose to be represented by a union for purposes of collective bargaining with the University regarding “wages, hours, working conditions

App. 17
and contract grievance arbitration.” 26 M.R.S.A.
§§ 1025, 1026(1)(C). Employees are not required to be
union members. Id. at §§ 1023(2), 1027(1)(G). A union
that receives the majority of the votes is certified and
“recognized by the [U]niversity…as the sole and exclusive bargaining agent for all of the employees in
the bargaining unit.” Id. at § 1025(2)(B). Such a union
“is required to represent all the [U]niversity...employees within the unit without regard to membership in
the organization certified as bargaining agent.” Id. at
§ 1025(2)(E).
Reisman seeks a preliminary injunction under
Fed. R. Civ. P. 65(a) that would enjoin the Union from
holding itself out as his representative, and also enjoin the Defendant Board of Trustees of the University of Maine System (the “Board”) from treating the
Union as his representative and agent. In response,
the Union, the Board and the University, along with
the intervenor Attorney General of the State of Maine
(“Maine”), move to dismiss Reisman’s complaint under Fed. R. Civ. P. 12(b)(6) for failing to state a claim.
Because I conclude that Reisman’s complaint fails to
state a claim, I deny his motion for a preliminary injunction, grant the Union’s, the University and the
Board’s, and the State’s motions to dismiss, and order
the dismissal of this case.
II. ANALYSIS
To survive a motion to dismiss, the complaint
“must contain sufficient factual matter to state a
claim to relief that is plausible on its face.” Rodríguez–
Reyes v. Molina–Rodríguez, 711 F.3d 49, 53 (1st Cir.

App. 18
2013). In evaluating a motion to dismiss, the Court
will accept all well-pleaded facts as true and draw all
reasonable inferences in the plaintiff’s favor. Id. at 5253. Determining the plausibility of a claim is a context-specific task that requires the court “to draw on
its judicial experience and common sense.” Id. at 53
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)).
Reisman argues that the Act imposes on him “a
government-appointed lobbyist who attempts to influence government on his behalf and in his name, as his
agent and representative, even though he disagrees
with the positions it attributes to him.” ECF No. 5 at
7. This, he contends, gives rise to two First Amendment violations: First, Reisman contends that the Act
violates his right to free speech because it effectively
compels him to speak on matters from which he
chooses to refrain from speaking. See Wooley v.
Maynard, 430 U.S. 705, 714 (1977) (“[Freedom of
speech] includes both the right to speak freely and the
right to refrain from speaking at all.”). In his declaration filed in support of his motion, Reisman expresses
his opposition to numerous positions the Union has
taken on his behalf relating to, among other things,
wages, hours, and conditions of employment, as well
as various other positions and actions by the Union:
for example, its decision to expend funds opposing the
election of Maine governor Paul LePage in 2010 and
2014, and its support for presidential candidate Hilary Clinton in 2016. Second, Reisman argues that the
Act violates his right of free association because it

App. 19
compels him to associate with the Union, an organization whose speech he chooses not to be associated
with. See Janus v. Am. Fed’n of State, Cty., & Mun.
Emps., Council 31, 138 S.Ct. 2448, 2463 (2018) (“The
right to eschew association for expressive purposes is
likewise protected.”). Although Reisman does not
claim that he or any particular organization he is associated with has a right to participate in bargaining
sessions, he does contend that he cannot be compelled
to associate with the Union “through its advocacy as
his representative or agent.” ECF No. 5 at 15.
Stated succinctly, Reisman’s constitutional challenge to the Act is that by establishing the Union as
the exclusive bargaining agent of the University’s professors, the Act violates his First Amendment right of
free speech and association by depriving him of the
right to “decide what not to say” and by placing him
in an agency relationship with the Union, thereby
forcing him into an unwanted expressive association.
ECF No. 38 at 5.
The Union, the University and the Board, and the
State all contend that Reisman’s constitutional arguments are contrary to established precedent of the Supreme Court and the First Circuit Court of Appeals:
Minn. State Bd. for Cmty. Colleges v. Knight, 465 U.S.
271 (1984), which rejected a challenge to a Minnesota
collective bargaining statute similar to the Act on
grounds similar to those Reisman asserts, and D’Agostino v. Baker, 812 F.3d 240 (1st Cir. 2016), cert. denied, 136 S. Ct. 2473 (2016), which similarly rejected
a challenge to the exclusive representation provisions

App. 20
of a Massachusetts collective bargaining statute.
Reisman points, however, to a more recent Supreme
Court decision—Janus—as having shifted the constitutional framework by requiring that a more exacting
degree of judicial scrutiny be applied to statutes that
are alleged to infringe on speech and associational
rights. In his view, Janus undermines the vitality of
the Knight and D’Agostino decisions.
Knight involved a challenge by college instructors
to a Minnesota law mandating that a union representative selected as their exclusive bargaining agent
concerning “the terms and conditions of employment”
also be their exclusive agent in “meet and confer” sessions with school officials covering other matters outside the scope of mandatory union negotiations. 465
U.S. at 274-75. The Court upheld the statute, finding
that the professors’ “speech and associational rights
…have not been infringed by [the] restriction of participation in ‘meet and confer’ sessions to the faculty’s
exclusive representative.” Id. at 288.
Reisman attempts to distinguish Knight, arguing
that Knight only addresses associational exclusion because the Minnesota statute denied professors the opportunity to speak at “meet and confer” sessions,
while his challenge to the Act is broader because the
Act compels him to associate and speak against his
beliefs. ECF No. 38 at 14. The Knight decision, however, is not so narrow. The Court explained that “[t]he
state has in no way restrained appellees’ freedom to
speak on any education-related issue or their freedom
to associate or not to associate with whom they please,

App. 21
including the exclusive representative.” Knight, 465
U.S. at 288 (emphasis added). In reaching this conclusion, the Court expressly noted that, like here, the
state considered the exclusive union representative’s
views to be the official collective position of all faculty
and recognized “that not every instructor agrees with
the official faculty view on every policy question.” Id.
at 276. Knight is therefore not distinguishable from
the present case, and it forecloses Reisman’s First
Amendment claims.
In D’Agostino, the First Circuit, relying in part on
Knight, affirmed the dismissal of a complaint under
Fed. R. Civ. P. 12(b)(6) which challenged a statutory
scheme which—like the one at issue here—authorized
exclusive representation in collective bargaining for
public employees. 812 F.3d at 242. The First Circuit
squarely rejected the plaintiffs’ alleged First Amendment violation, reasoning that “exclusive bargaining
representation by a democratically selected union
does not, without more, violate the right of free association on the part of dissenting non-union members
of the bargaining unit.” Id. at 244. Reisman concedes
that if D’Agostino remains controlling authority it defeats his claims. ECF No. 5 at 12-13.
As previously noted, however, Reisman also argues that Knight and D’Agostino are no longer valid
in light of the Supreme Court’s recent ruling in Janus.
Specifically, Reisman argues that by stating in Janus
“that a union serv[ing] as exclusive bargaining agent
for its employees [is] itself a significant impingement
on associational freedoms that would not be tolerated

App. 22
in other contexts,” the Court indicated for the first
time that collective bargaining statutes do burden
First Amendment rights and must therefore pass
some level of heightened scrutiny. 138 S.Ct. at 2478.
Because Knight and D’Agostino—finding no First
Amendment burden at all—failed to subject the challenged laws to such scrutiny, Reisman contends that
they are in conflict with Janus and do not control his
claims. Reisman further argues that D’Agostino must
be reconsidered because it is inextricably intertwined
with Abood v. Detroit Board of Education, 431 U.S.
209 (1977), which Janus expressly overruled. 138
S.Ct. at 2486. D’Agostino cited Abood for the proposition that non- union public employees “have no cognizable associational rights objection” to a union’s exclusive bargaining scheme, such as the one created by
the Act. 812 F.3d at 243.
In Janus, the Supreme Court held that statutes
that compel the payment of agency fees to a union
that serves as the exclusive bargaining agent for all
employees—both union members and non-members—
violate the First Amendment rights of the non-member employees by compelling them to subsidize the
union’s private speech. 138 S.Ct. at 2464, 2478. The
Court overruled its earlier decision in Abood which
had reached the opposite conclusion. The Court did
not consider in Janus whether, as Reisman claims in
this case, there is a constitutional defect in statutes
that authorize a union selected by a majority vote of
all employees to act as the exclusive bargaining agent
for the employees in collective bargaining. The Janus

App. 23
opinion strongly suggests, however, that, as D’Agostino found, there is no constitutional defect: “It is
…not disputed that the State may require that a union serve as exclusive bargaining agent for its employees…. We simply draw the line at allowing the government to go further still and require all employees
to support the union irrespective of whether they
share its views.” Janus, 138 S.Ct. at 2478. Thus, although D’Agostino cited favorably to Abood, and Abood
was overruled by Janus, Janus did not, as Reisman
argues, call into question D’Agostino’s conclusion that
the First Amendment is not violated where a democratically selected union serves as the exclusive bargaining agent for all employees.
Reisman also contends that the Knight and D’Agostino decisions should be reconsidered because they
did not apply the heightened level of judicial review—
“exacting scrutiny”—which Janus indicates should be
applied. 138 S.Ct. at 2465; ECF No. 38 at 17. The
Court noted in Janus that it had in the past used exacting scrutiny in assessing issues of compelled
speech and association, which requires a law to “serve
a compelling state interest that cannot be achieved
through means significantly less restrictive of associational freedoms.” 138 S.Ct. at 2465. However, in Janus the Court cited approvingly to federal union laws,
see, e.g., 5 U.S.C.A. §§ 7102, 7111(a), 7114(a) (West
2018), which allow exclusive union representation selected by a majority vote of the employees, but do not
permit agency fees and characterized this approach

App. 24
as “significantly less restrictive of associational freedoms” than are mandated agency fees.2 138 S.Ct. at
2466. This is the exact arrangement codified by the
Act which Reisman challenges here. Thus, Janus itself suggests that the Act satisfies the exacting scrutiny standard.
Accordingly, Janus did not overrule or unsettle the
Knight or D’Agostino decisions, both of which are
binding precedent. The other courts which have addressed the same or similar questions since the Supreme Court’s decision in Janus have reached the
same conclusion. In Bierman v. Dayton, 900 F.3d 570,
574 (8th Cir. 2018), the court addressed a challenge
by public homecare providers that is essentially identical to Reisman’s: that exclusive union representation of non- members creates a “mandatory agency relationship” which violates their right to free association under the First Amendment. The Eighth Circuit
concluded that the plaintiffs’ claims were foreclosed
by Knight which, the court held, was not superseded
by Janus. Id. In another case challenging the same
statute, Uradnik v. Inter Faculty Organization, 2018

The Janus decision assumed that “labor peace,” meaning the
“avoidance of the conflict and disruption that [Abood] envisioned
would occur if the employees in a unit were represented by more
than one union,” is a compelling state interest. 138 S.Ct. at 2465.
The Court cited several federal employment laws as illustrative
of the fact that labor peace has been achieved where “a union
chosen by majority vote is designated as the exclusive representative of all the employees, but federal law does not permit
agency fees.” 138 S.Ct. at 2466.
2

App. 25
WL 4654751 (D. Minn. Sept. 27, 2018), the court denied a preliminary injunction sought by a professor
that would have enjoined the faculty union from acting as her representative and the university from
treating the union as her representative. The court
held that Knight was distinguishable from Janus and
“broadly rejected the [professor’s] First Amendment
free speech arguments, indicating that the decision
applies regardless of the type of speech at issue.” Id.
at *2. Furthermore, the court reasoned that even if
Janus is construed as requiring that exclusive union
representation undergo heightened judicial scrutiny,
Minnesota’s statute survives exacting scrutiny because the “benefits unions provide…are already tailored to minimize First Amendment speech and associational harms.” Id. at *3. The same is true of the
University of Maine System Labor Relations Act.
Reisman contends that by challenging the Act’s
constitutionality he does not seek to prevent the Union and the Board from continuing to negotiate the
terms and conditions of employment and “to apply the
terms of its collective bargaining agreement to all bargaining-unit members.” ECF No. 38 at 2. Rather, he
challenges the Act because, as he characterizes it, the
Act unlawfully “permits the Board to appoint the Union as [his] unwanted representative and agent so
that it can speak on his behalf on many issues of substantial public concern.” ECF No. 38 at 3. This argument mischaracterizes the Act’s requirements and effect.

App. 26
Under the Act, the Union was not, as Reisman asserts, appointed by the Board as his representative
and agent. Instead, it was selected by a majority vote
of the employees to serve as their bargaining-unit’s
agent. 26 M.R.S.A. § 1025. And by authorizing the
Union, in its role as the agent for the bargaining-unit,
to negotiate with the Board on matters related to the
terms and conditions of employment, id. at
§ 1025(2)(B), the Act does not cloak the Union with
the authority to speak on issues of public concern on
behalf of employees, such as Reisman, who do not belong to the Union. Reisman remains free to speak out
in opposition to the Union and its positions as he sees
fit. His constitutional challenge to the Act thus rests
on a fundamental misconception. The Union is not, as
Reisman appears to believe, his individual agent. Rather, the Union is the agent for the bargaining-unit
which is a distinct entity separate from the individual
employees who comprise it. Because the Union is not
Reisman’s agent, representative, or spokesperson, the
Act does not compel him, in violation of the First
Amendment, to engage in speech or maintain an association with which he disagrees.
III. CONCLUSION
For the preceding reasons, I conclude that Reisman’s complaint fails to state a claim upon which relief can be granted arising from the Act’s alleged infringement of his First Amendment Rights. The Defendants’ motions to dismiss (ECF Nos. 30, 33, 34) are
therefore GRANTED. Consequently, Reisman has
failed to demonstrate a likelihood of success on the

App. 27
merits of his claims, the key requirement for obtaining a preliminary injunction. “The sine qua non of [the
preliminary injunction] inquiry is likelihood of success on the merits: if the moving party cannot demonstrate that he is likely to succeed in his quest, the remaining factors become matters of idle curiosity.”
New Comm Wireless Servs., Inc. v. SprintCom, Inc.,
287 F.3d 1, 9 (1st Cir. 2002) (emphasis added). Thus,
Reisman’s motion for a preliminary injunction (ECF
No. 5) is DENIED.
SO ORDERED.
Dated this 3rd day of December, 2018.
/s/ JON D. LEVY
U.S. DISTRICT JUDGE

App. 28
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
JONATHAN REISMAN
Plaintiff
v.
ASSOCIATED
FACULTIES OF THE
UNIVERSITY OF MAINE,
UNIVERSITY OF MAINE
AT MACHIAS, and the
BOARD OF TRUSTEES
OF THE UNIVERSITY OF
MAINE SYSTEM

1:18-cv-00307-JDL

Defendants, and
STATE OF MAINE
Intervenor.
JUDGMENT
In accordance with the Order on the Defendants’
Motions to Dismiss and Plaintiff’s Motion for Preliminary Injunction, issued on December 3, 2018, by U.S.
District Judge Jon D. Levy;
JUDGMENT of dismissal is hereby entered for Defendants, Associated Faculties of the University of
Maine, the University of Maine at Machias, Board of
Trustees of the University of Maine System, and Intervenor, State of Maine.

App. 29
Christa K. Berry
Clerk of Court
By: /s/ Amy K. Rydzewski
Amy K. Rydzewski
Deputy Clerk
Dated: December 4, 2018

App. 30
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
JONATHAN REISMAN
Plaintiff
v.
ASSOCIATED
FACULTIES OF THE
UNIVERSITY OF
MAINE, UNIVERSITY
OF MAINE AT
MACHIAS, and the
BOARD OF TRUSTEES
OF THE UNIVERSITY
OF MAINE SYSTEM

Civil Case No.:________

INJUNCTIVE RELIEF
SOUGHT

Defendants.
COMPLAINT
Jonathan Reisman, for his Complaint against Associated Faculties of the University of Maine; the University of Maine at Machias; and the Board of Trustees of the University of Maine System (collectively,
“Defendants”), alleges as follows:
Nature of the Action
1.
The First Amendment protects the individual rights of free speech and association, including the
rights not to speak and not to associate. For example,
public employees who do not belong to a labor union
“should not be required to fund a union’s political and

App. 31
ideological projects unless they choose to do so.” Knox
v. Serv. Employees Int’l Union, Local 1000, 567 U.S.
298, 315 (2012). Furthermore, “[b]ecause a public-sector union takes many positions during collective bargaining that have powerful political and civic consequences, the compulsory fees constitute a form of compelled speech and association that imposes a significant impingement on First Amendment rights.” Id. at
311–12 (quotations and citations omitted). As the Supreme Court has now made clear in Janus v. American Federation of State, County, and Municipal Employees, Council 31, 138 S. Ct. 2448 (2018), that type
of burden is impermissible.
2.
In violation of these principles, Maine law
authorizes state-run universities and labor unions to
require public employees who are not union members
to associate with those unions and accept their status
as “the sole and exclusive bargaining agent” for the
employees’ interests. The Defendants in this case
have done exactly that, agreeing that the Associated
Faculties of the University of Maine will be the exclusive representative of employees of the University of
Maine at Machias, like the Plaintiff, whether or not
they want the Associated Faculties’ representation.
The agreement the Defendants have executed provides that only the Associated Faculties may bargain
as to terms and conditions of employment at the University of Maine at Machias, thereby depriving the
Plaintiff and others the right to petition the government on their own behalf.

App. 32
3.
As the Supreme Court has now recognized,
“[d]esignating a union as the employees’ exclusive
representative substantially restricts the rights of individual employees. Among other things, this designation means that individual employees may not be
represented by any agent other than the designated
union; nor may individual employees negotiate directly with their employer.” Janus, 138 S. Ct. at 2460.
For that reason, and because the union’s advocacy is
attributed to employees, that designation violates employees’ speech and petitioning rights, as well as their
associational rights, in contravention of the First
Amendment.
Parties
4.
The Plaintiff, Johnathan Reisman, is a professor of economics at the University of Maine at Machias. Mr. Reisman is a “state employee” within the
meaning of Maine Revised Statute tit. 26, § 979-A(6);
see also id. § 1022(8).
5.
Defendant University of Maine at Machias
(the “University”) is a public university in Maine. The
University is part of the University of Maine System,
and “an instrumentality and agency of the State,” Me.
Rev. Stat. tit. 20-A, §§ 10901, 10903; id. at tit. 26,
§ 1022(10), which is governed and regulated by state
statutes, see, e.g., Me. Rev. Stat. tit. 20-A, § 10007, is
overseen by trustees, including 14 appointed by the
governor, reviewed by a joint committee of jurisdiction, and confirmed by the Maine Legislature, and
funded from the state treasury.

App. 33
6.
Defendant Board of Trustees of the University of Maine System (the “Board”) is the Maine “instrumentality and agency of the State” charged with
the superintendence of the University System, including University of Maine at Machias. Me. Rev. Stat. tit.
20-A, §§ 10901, 10903; id. at tit. 26, § 1022(10). The
Board is the public employer of University employees
within the meaning of Maine’s public-employees labor-relations code. Me. Rev. Stat. Ann. tit. 20-A
§§ 1022(3), (10).
7.
Defendant Associated Faculties of the University of Maine (the “Union”) is a “bargaining agent”
as defined in the Maine university-public-employees
labor-relations code, Me. Rev. Stat. Ann. tit. 26,
§§ 1022.1-B, and represents employees at the University.
Jurisdiction and Venue
8.
This case raises claims under the First and
Fourteenth Amendments of the federal Constitution,
42 U.S.C. § 1983, and the doctrine of Ex Parte Young,
209 U.S. 123 (1908). Jurisdiction is proper under 28
U.S.C. § 1331.
9.
Mr. Reisman, the Board, the University, and
the Union are all residents of Maine. Venue is proper
in this District under 28 U.S.C. § 1391(b).
Factual Allegations
10. Under Maine law, a union may become the
exclusive bargaining representative for public em-

App. 34
ployees in a bargaining unit by showing that a majority of employees in the unit wish the union to represent them. Me. Rev. Stat. Ann. tit. 26, § 1025.
11.

This showing may be made in two ways.

12. First, the union may obtain recognition
simply by “alleging” that a majority of employees in
the unit desire the union to be their representative. If
the university does not contest this allegation, the union is recognized as the exclusive bargaining representative. Me. Rev. Stat. Ann. tit. 26, § 1025(1).
13. Second, if the university “desire[s] that an
election determine whether the organization represents a majority of the members in the bargaining
unit,” the Maine Labor Relations Board oversees an
election, which occurs in two stages. Me. Rev. Stat.
Ann. tit. 26, § 1025(1), (2).
14. At the first stage, the union may obtain a certification election by presenting proof to Maine’s Labor Relations Board that at least 30 percent of employees in a proposed bargaining unit wish to be represented by the union. Me. Rev. Stat. Ann. tit. 26,
§ 1025(2)(A).
15. At the second, if the union obtains at least a
majority of votes of bargaining- unit employees in the
election, it is certified as the exclusive representative
of employees in the bargaining unit. Me. Rev. Stat.
Ann. tit. 26, §§ 1025(2)(B).
16. A union certified as the exclusive representative of employees in a bargaining unit “is required to

App. 35
represent all the university, academy or community
college employees within the unit without regard to
membership in the organization certified as bargaining agent.” Me. Rev. Stat. Ann. tit. 26, §§ 1025(2)(E).
Accordingly, such a union is the representative of employees who are not members of the union.
17. A public employer must bargain collectively
with a union that obtains status as the exclusive representative of some or all its employees. Me. Rev.
Stat. Ann. tit. 26, §§ 1026, 1027(1)(E), (2)(B).
18. The duty to bargain requires the university
to “confer and negotiate in good faith with respect to
wages, hours, working conditions and contract grievance arbitration.” Me. Rev. Stat. tit. 26 § 1026(1)(A).
19. Maine law authorizes a union and public university to deduct an agency fee from public employees
who are not members of the unit to fund the union’s
“representational activities.” Me. Rev. Stat. tit.
§ 1023(A)(2). This provision is now plainly unconstitutional in light of Janus.
20. The Board and the Union are parties to a collective bargaining agreement with a stated term from
2015 through 2017, which, on information and belief,
is currently in force or is identical for all material purposes of this case to the one currently in force. See Exhibit A (the “Agreement”). The Union identifies this
Agreement on its website as the “Current Contract.”
21. The Agreement establishes a bargaining unit
of “University of Maine System employees.” Agreement, Art. 1.

App. 36
22. The Agreement provides that the Union is
the “sole and exclusive bargaining agent” of those persons. Id.
23. Accordingly, under Maine law and the Agreement, the Union is the representative and agent of
University of Maine System employees who have declined to join the Union.
24. The Agreement requires that, even when
dealing with individual employees, “[t]he Board or its
officers and agents shall at all times be cognizant of
the status of the Association as the sole and exclusive
bargaining agent under the University of Maine System Labor Relations Act for unit members.” Agreement, Art. 3.
25. The Agreement provides the Union the right
to “express its views at meetings of the Board of Trustees.” Id. Art. 3(D).
26. The Agreement provides for the appointment
members of the Union to be a “designated grievance
chairperson” to assist in “the implementation of this
Agreement.” Id. Art. 4(A)(2). “Such representatives
shall have the right…to investigate, consult and prepare grievance presentations and attend grievance
hearings and meeting or participate in collective bargaining.” Id.
27. The Agreement requires the University to
meet with a committee of Union representatives on
the Union’s request “for the purpose of discussing
matters necessary to the implementation of this

App. 37
Agreement.” Id. Art 5(A). Topics of discussion may include “University-wide” matters, matters “related to
a particular campus,” and “[m]atters of common concern.” Id. Art 5(C), (D), (E).
28. The Agreement affords the Union the right to
prepare “default student evaluation form and procedures for assessment of online and interactive television (ITV) courses,” which are used in evaluating faculty members. Id. Art. 10(B)(2).
29. The Agreement requires unit members to
join the Union, pay a representation fee to the Union,
or pay a fee to an “education fund.” Id. Art. 14(A). This
provision is now patently unconstitutional under Janus.
30. The Agreement provides for a grievance procedure for resolving “any complaint that exists with
respect to the interpretation or application of this
Agreement.” Id. Art. 15. Although the Agreement allows any individual unit member to proceed through
the first three steps of the grievance procedure, it afford only the Union the right to proceed past step
three, including bringing the grievance to the University Chancellor and arbitration. Id. Art. 15(C). In
other words, an individual may not proceed past step
three or arbitrate a grievance unless the Union represents him or her.
31. The Agreement also provides the Union the
right to have its representative attend and “state its
views” at all grievance stages prosecuted by an individual not represented by the Union, whether or not

App. 38
that individual wishes the Union’s representative to
attend. Id. Art. 15(E)(3).
32. In all of these activities, the Union speaks on
behalf of the employees that it represents.
33. In addition to these Union-specific rights and
roles, the Agreement records the Board’s and Union’s
negotiated points of agreement, including those pertaining to wages, benefits, grievances, the school year,
workload, personnel files, office hours, severance, retirement, leaves of absence, and so on. These provisions bind all bargaining unit members, including
non-union employees.
34. Dr. Reisman is a tenured faculty member at
the University.
35.

Dr. Reisman is not a member of the Union.

36. Dr. Reisman disagrees with the Union on
many issues, including issues related to terms and
conditions of employment and issues related to governance of the University.
37. Due to the Union’s status as exclusive representative of University faculty, Dr. Reisman has no
meaningful avenue to negotiate his own terms and
conditions of employment with the University.
38. Due to the Union’s status as exclusive holder
of the statutory right to meet and confer, Dr. Reisman
has no avenue to exercise the meet and confer rights
the Union possesses.

App. 39
Count I: Designating a Union as Employees’
“Exclusive Representative” Violates the First
Amendment
39. The Plaintiff incorporates and re-alleges
each and every allegation contained in the foregoing
paragraphs of this Complaint, as though fully set
forth herein.
40. By designating the Union as the Plaintiff’s
exclusive representative, Maine law and the Agreement violate the Plaintiff’s rights under the First and
Fourteenth Amendments to the United States Constitution.
41. That designation compels the Plaintiff to associate with the Union.
42. The designation compels the Plaintiff to
speak and to petition government, because it authorizes and requires the Union to speak for him.
43. That designation attributes the Union’s
speech and petitioning to the Plaintiff.
44. That designation restricts the Plaintiff’s
speech and petitioning.
45.

The Plaintiff has no adequate remedy at law.

46. The controversy between Defendants and the
Plaintiff is a definite and concrete dispute concerning
the legal relations of parties with adverse legal interests.

App. 40
47. The dispute is real and substantial, as the
Union continues to hold itself out as the Plaintiff’s exclusive representative and its designation as such restricts the Plaintiff’s rights.
48. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to a
mere advisory opinion, as the parties dispute the legality of the Union’s designation as the Plaintiff’s exclusive representative.
49. As a result of the foregoing, an actual and
justiciable controversy exists between the Plaintiff
and the Union regarding their respective legal rights,
and the matter is ripe for review.
Costs and Attorneys’ Fees
50. Pursuant to 42 U.S.C § 1988, the Plaintiff
seeks an award of costs and attorneys’ fees incurred
in the litigation of this case.
Prayer for Relief
For these reasons, the Plaintiff requests that the
Court:
(A) Enter a judgment declaring that Maine’s exclusive-representation law and the Agreement impermissibly abridge the Plaintiff’s First
Amendment speech, petitioning, and associational rights by designating the Union as the
Plaintiff’s exclusive representative;
(B) Enter an injunction barring Defendants from
recognizing the Union as the Plaintiff’s exclusive representative or representative;

App. 41
(C) Enter an injunction barring Defendants from
affording preferences to members of the Union;
(D) An award of costs, including reasonable attorneys’ fees, pursuant to 42 U.S.C. § 1988(b);
(E) Grant the Plaintiff additional or different relief
as the Court deems just and proper.
August 10, 2018

Respectfully submitted,
/s/ Timothy C. Woodcock
Timothy C. Woodcock
EATON PEABODY
PO Box 1210
80 Exchange Street
Bangor, ME 04402-1210
fax 207-742-3040
twoodock@eatonpeabody.
com

Robert Alt*
Daniel Dew*
The Buckeye Institute
88 East Broad Street,
Suite 1120
Columbus, OH 43215
(614) 224-4422
robert@buckeyeinstitut
.org

/s/ Andrew M. Grossman
Andrew M. Grossman*
Mark W. DeLaquil*
Richard B. Raile*
BAKER & HOSTETLER
LLP
1050 Connecticut Ave.,
N.W.
Washington, DC 20036
(202) 861-1697 (phone)
(202) 861-1783 (fax)

App. 42
agrossman@bakerlaw.co
m
Attorneys for Plaintiff
*Pro hac vice motions forthcoming

App. 43
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
JONATHAN REISMAN
Plaintiff
v.
ASSOCIATED
FACULTIES OF THE
UNIVERSITY OF
MAINE, UNIVERSITY
OF MAINE AT
MACHIAS, and the
BOARD OF TRUSTEES
OF THE UNIVERSITY
OF MAINE SYSTEM

Civil Case No.:________

INJUNCTIVE RELIEF
SOUGHT

Defendants.
DECLARATION OF JONATHAN REISMAN
Pursuant to 28 U.S.C. § 1746, I, Jonathan Reisman, declare and state as follows:
1. I am over the age of 18 and competent to
make this declaration. I have personal knowledge of
the fact state herein, and if called as a witness, I could
and would competently testify thereto.
2. I am an Associate Professor of Economics and
Public Policy at the University of Maine at Machias.
3. I am an employee of the University of Maine
System (the “Board”),

App. 44
4. The Associated Faculties of the University of
Maine (the “Union”) has been designated as the exclusive bargaining agent for employees of the Board.
5. AFUM is affiliated with the Maine Education
Association and the National Educational Association.
6. The Board has entered into a series of collective-bargaining agreements with the Union, including
the latest “Agreement.” A true and correct copy of the
Agreement is attached as Exhibit A.
7. Under that Agreement, the bargaining unit
includes all “University of Maine System employees.”
Ex. A, art. 1.
8. I belong to the bargaining unit covered by the
Agreement.
9.

I am not a member of the Union.

10. Under Maine law and without my affirmative
consent, the union acts as my exclusive representative and agent to the board when collectively bargaining, in grievance proceedings, in other contacts with
the Board and its agents and employees, and when
engaging in other public and governmental advocacy.
11. The Union speaks on my behalf. The Unions
speech to and petitioning of the government in its representative capacity is imputed to me because of the
Union’s status under Maine law and the Agreement
as my agent and representative, despite that I do not
authorize the Union to advocate or otherwise speak
on my behalf.

App. 45
12. My unwanted association with the Union is
forced upon me by Maine law and government officials, despite my actual refusal to associate with the
Union.
13. I oppose many of the positions the Union has
taken, including on political and policy matters.
14. I oppose numerous of the positions that the
Union has taken on my behalf, relating to, among
other things, wages, hours, and conditions of employment. Indeed, the Union has taken positions as my
exclusive representative that are contrary to my conscience and beliefs
15. Among other things, I oppose the MEA’s decision to expend funds opposing the election of Governor Paul LePage in 2010 and 2014
16. I opposed the MEA’s decision to promote and
support separate referenda which raised the minimum wage and imposed a 3% surtax on high income
households.
17. I opposed the MEA’s opposition to school
choice and charter schools.
18. I opposed the MEA and NEA’s support in
2016 for Hillary Clinton.
19. I oppose the MEA’s current support for another referendum to impose a surtax on high income
households.
20. I oppose the MEA’s support for various “social
justice” issues.

App. 46
21. I have no control over the Union’s choices of
positions to advocate, despite that the Union advocates those position on my behalf.
22. I am restricted from speaking on my own behalf or petitioning the government on my own behalf
by virtue of the Union’s designation as my exclusive
bargaining agent.
I declare under penalty of perjury that the foregoing is true and correct. Executed on August 7, 2018.
Jonathan Reisman
Jonathan Reisman

App. 47
26 M.R.S.A. § 1021
§ 1021. Purpose
It is declared to be the public policy of this State and
it is the purpose of this chapter to promote the improvement of the relationship between public employers and their employees by providing a uniform basis
for recognizing the right of the University of Maine
System employees, Maine Maritime Academy employees and community college employees to join labor organizations of their own choosing and to be represented by such organizations in collective bargaining for terms and conditions of employment.

App. 48
26 M.R.S.A. § 1022
§ 1022. Definitions
As used in this chapter, the following terms shall, unless the context requires a different interpretation,
have the following meanings.
1. Repealed. Laws 1975, c. 671, § 2, eff. Oct. 1, 1976.
1-A. Academy. “Academy” means the Maine Maritime
Academy and its activities and functions supervised
by its board of trustees or their designee. In the furtherance of this chapter, the academy shall be considered as a single employer and employment relations,
policies and practices throughout the academy shall
be as consistent as practicable. It is the responsibility
of the board of trustees of the academy or their designee to negotiate collective bargaining agreements
and to administer such agreements. The board of
trustees of the academy or their designee is responsible for the employer functions of the academy under
this chapter and shall coordinate its collective bargaining activities. For purposes of consistency elsewhere in this chapter, references to the university
shall be construed to include and to apply to the
Maine Maritime Academy, its board of trustees, and
its employees.
1-B. Bargaining agent. “Bargaining agent” means any
lawful organization, association or individual representative of such organization or association, which
has as one of its primary purposes the representation

App. 49
of employees in their employment relations with employers and which has been certified by the Executive
Director of the Maine Labor Relations Board.
1-C. Community college. “Community college” means
the Maine state community colleges and their activities and functions supervised by the Board of Trustees
of the Maine Community College System or its designee. The employment relations, policies and practices throughout the community colleges shall be as
consistent as possible. It is the responsibility of the
board of trustees or its designee to negotiate collective
bargaining agreements and administer these agreements. The board of trustees or its designee is responsible for employer functions of the community colleges
under this chapter and shall coordinate its collective
bargaining activities with campuses or units on matters of community college concern. In addition to its
responsibilities to the public generally, the board of
trustees shall have the specific responsibility of considering and representing the interests and welfare of
the students in any negotiations under this chapter.
A. Repealed.
2. Board. “Board” means the Maine Labor Relations
Board as defined in section 968, subsection 1.
3. Board of Trustees. “Board of Trustees” means the
Board of Trustees of the University of Maine System,
the Board of Trustees of the Maine Maritime Academy or the Board of Trustees of the Maine Community College System.

App. 50
4. Classified employee. “Classified employee” means
any employee not engaged in professional work as defined in subsection 7.
5. Cost items. “Cost items” means the provisions of a
collective bargaining agreement which require specific funding.
6. Executive Director. “Executive Director” means the
Executive Director of the Maine Labor Relations
Board as defined in section 968, subsection 2.
7. Professional employee. “Professional employee”
means any employee engaged in work:
A. Predominantly intellectual and varied in character
as opposed to routine mental, manual, mechanical or
physical work;
B. Involving the consistent exercise of discretion and
judgment in its performance;
C. Of such a character that the output produced or the
result accomplished cannot be standardized in relation to a given time period; and
D. Requiring knowledge of an advanced type in a field
of science or learning customarily acquired by a prolonged course of specialized intellectual instruction
and study in an institution of higher learning or a hospital, as distinguished from a general academic education or from an apprenticeship or from training in
the performance of routine mental, manual or physical processes.

App. 51
8. Regular employee. “Regular employee” means any
professional or classified employee who occupies a position that exists on a continual basis.
9. Supervisory employee. “Supervisory employee”
means any employee whose principal work tasks are
characterized by performing such management control duties as scheduling, assigning, overseeing and
reviewing the work of subordinate employees, or performing such duties as are distinct and dissimilar
from those performed by the employees supervised, or
exercising judgment in adjusting grievances, in applying other established personnel policies and procedures and in enforcing a collective bargaining agreement or establishing or participating in the establishment of performance standards for subordinate employees and taking corrective measures to implement
those standards.
10. University. “University” means all campuses or
units of the university, represented by the board of
trustees or its designee. In the furtherance of this
chapter, the university shall be considered as a single
employer and employment relations, policies and
practices throughout the university shall be as consistent as practicable. It is the responsibility of the
board of trustees or its designee to negotiate collective
bargaining agreements and to administer such agreements. The board of trustees or its designee is responsible for the employer functions of the university under this chapter and shall coordinate its collective
bargaining activities with campuses or units on mat-

App. 52
ters of university concern. In addition to its responsibilities to the public generally, the university shall
have the specific responsibility of considering and representing the interests and welfare of the students in
any negotiations under this chapter.
11. University, academy or community college employee. “University, academy or community college
employee” means any regular employee of the University of Maine System, the Maine Maritime Academy
or the Maine Community College System performing
services within a campus or unit, except any person:
A. Appointed to office pursuant to law;
B. Appointed by the Board of Trustees as a vice-president, dean, director or member of the chancellor’s,
superintendent’s or Maine Community College System executive director’s immediate staff; or
C. Whose duties necessarily imply a confidential relationship with respect to matters subject to collective
bargaining as between such person and the university, the academy or the Maine Community College
System.

App. 53
26 M.R.S.A. § 1023
§ 1023. Right of university, academy or
community college employees to join or refrain
from joining labor organizations; prohibition
A person may not directly or indirectly interfere with,
intimidate, restrain, coerce or discriminate against a
university, academy or community college employee
or a group of university, academy or community college employees in the free exercise of their rights,
given by this section, to voluntarily:
1. Join a union. Join, form and participate in the activities of organizations of their own choosing for the
purposes of representation and collective bargaining
or in the free exercise of any other right under this
chapter; or
2. Not join a union. Refrain from joining or participating in the activities of organizations for the purposes
of representation and collective bargaining, except
that an employee may be required to pay to the organization that is the bargaining agent for the employee
a service fee that represents the employee’s pro rata
share of those expenditures that are germane to the
organization’s representational activities.

App. 54
26 M.R.S.A. § 1025
§ 1025. Determination of bargaining agent
1. Voluntary recognition. Any employee organization
may file a request with the university, academy or
community colleges alleging that a majority of the
university, academy or community college employees
in an appropriate bargaining unit as established in
section 1024, wish to be represented for the purpose
of collective bargaining between the university, academy or community colleges and the employees’ organization. Such request shall describe the grouping of
jobs or positions which constitute the unit claimed to
be appropriate and shall include a demonstration of
majority support. Such request for recognition shall
be granted by the university, academy or community
colleges unless the university, academy or community
colleges desire that an election determine whether the
organization represents a majority of the members in
the bargaining unit. In the event that the request for
recognition is granted by the university, academy or
community colleges, the executive director shall certify the organization so recognized as the bargaining
agent.
2. Elections.
A. The executive director of the board, upon signed request of the university, academy or community college alleging that one or more university, academy or
community college employees or employee organizations have presented to it a claim to be recognized as
the representative of a bargaining unit of university,

App. 55
academy or community college employees, or upon
signed petition of at least 30% of a bargaining unit of
university, academy or community college employees
that they desire to be represented by an organization,
shall conduct a secret ballot election to determine
whether the organization represents a majority of the
members of the bargaining unit. Such an election may
be conducted at suitable work locations or through the
United States mail, and the procedures adopted and
employed must ensure that neither the employee organizations or the management representatives involved in the election have access to information that
would identify a voter.
B. The ballot shall contain the name of such organization and that of any other organization showing written proof of at least 10% representation of the university, academy or community college employees within
the unit, together with a choice for any university,
academy or community college employee to designate
that the employee does not desire to be represented
by any bargaining agent. Where more than one organization is on the ballot, and no one of the 3 or more
choices receives a majority vote of the university,
academy or community college employees voting, a
run-off election shall be held. The run-off ballot shall
contain the 2 choices which received the largest and
2nd largest number of votes. When an organization
receives the majority of votes of those voting, the executive director shall certify it as the bargaining
agent. The bargaining agent certified as representing

App. 56
a bargaining unit shall be recognized by the university, academy or community colleges as the sole and
exclusive bargaining agent for all of the employees in
the bargaining unit unless and until a decertification
election by secret ballot shall be held and the bargaining agent declared by the executive director as not
representing a majority of the unit.
C. Whenever 30% of the employees in a bargaining
unit petition for a bargaining agent to be decertified,
the procedures for conducting an election on the question shall be the same as for representation as bargaining agent hereinbefore set forth.
D. No question concerning representation may be
raised within one year of a certification or attempted
certification. Where there is a valid collective bargaining agreement in effect, no question concerning unit
or representation may be raised except during the period not more than 90 nor less than 60 days prior to
the expiration date of the agreement.
E. The bargaining agent certified by the executive director or a designee as the exclusive bargaining agent
for a unit is required to represent all the university,
academy or community college employees within the
unit without regard to membership in the organization certified as bargaining agent, except that any
university, academy or community college employee
may present at any time that employee’s grievance to
the employer and have that grievance adjusted without the intervention of the bargaining agent, if the adjustment is not inconsistent with the terms of any collective bargaining agreement then in effect and the

App. 57
bargaining agent’s representative has been given reasonable opportunity to be present at any meeting of
the parties called for the resolution of that grievance.

App. 58
26 M.R.S.A. § 1026
§ 1026. Obligation to bargain
1. Negotiations. It is the obligation of the university,
academy, community college or state schools for practical nursing and the bargaining agent to bargain collectively. “Collective bargaining” means, for the purpose of this chapter, their mutual obligation:
A. To meet at reasonable times;
B. To meet within 10 days after receipt of written notice from the other party requesting a meeting for collective bargaining purposes if the parties have not
otherwise agreed in a prior written contract;
C. To confer and negotiate in good faith with respect
to wages, hours, working conditions and contract
grievance arbitration, except that by such obligation
neither party is compelled to agree to a proposal or
required to make a concession;
D. To execute in writing any agreements arrived at,
the term of any such agreement to be subject to negotiation, but not to exceed 3 years; and
E. To participate in good faith in the mediation, fact
finding and arbitration procedures required by this
section.
1-A. Additional bargaining; community college employees. Cost items in any collective bargaining agreement of community college employees must be submitted for inclusion in the Governor’s next operating
budget within 10 days after the date on which the
agreement is ratified by the parties. If the Legislature

App. 59
rejects any of the cost items submitted to it, all cost
items submitted must be returned to the parties for
further bargaining. “Cost items” includes salaries,
pensions and insurance.
Cost items related to a collective bargaining agreement reached under this chapter and submitted to the
Legislature for its approval under this subsection
may not be submitted in the same legislation that contains cost items for employees exempted from the definition of “community college employee” under section
1022, subsection 11.
2. Mediation.
A. It is the declared policy of the State to provide full
and adequate facilities for the settlement of disputes
between the employer and employees or their representatives through mediation.
B. Mediation procedures, as provided by section 965,
subsection 2, shall be followed whenever either party
to a controversy requests such services prior to arbitration, or at any time on motion of the Maine Labor
Relations Board or its executive director.
C. The employer, union or employees involved in collective bargaining shall notify the Executive Director
of the Maine Labor Relations Board, in writing, at
least 30 days prior to the expiration of a contract, or
30 days prior to entering into negotiations for a first
contract between the employer and the employees, or
whenever a dispute arises between the parties threatening interruption of work, or under both conditions.

App. 60
D. Nothing in this section shall be construed as preventing the parties, as an alternative to mediation under section 965, from jointly agreeing to elect mediation from either the Federal Mediation and Conciliation Service or the American Arbitration Association,
in accordance with the procedures, rules and regulations of those organizations.
E. Any information disclosed by either party to a dispute to a mediator or to a mediation panel or any of
its members in the performance of this subsection
shall be privileged.
3. Fact-finding.
A. If the parties, either with or without the services of
a mediator, are unable to effect a settlement of their
controversy, they may jointly agree either to call upon
the Maine Labor Relations Board to arrange for factfinding services and recommendations to be provided
by the Maine Board of Arbitration and Conciliation,
or to pursue some other mutually acceptable fact-finding procedure, including use of the Federal Mediation
and Conciliation Service or the American Arbitration
Association according to their respective procedures,
rules and regulations.
B. If the parties do not jointly agree to call upon the
Maine Labor Relations Board or to pursue some other
procedure, either party to the controversy may request the executive director to assign a fact-finding
panel. If so requested, the executive director shall appoint a fact-finding panel, ordinarily of 3 members, in

App. 61
accordance with rules and procedures prescribed by
the board for making such appointments.
C. The fact-finding proceedings shall be as provided
by section 965, subsection 3.
4. Arbitration.
A. At any time after participating in the procedures
set forth in subsections 2 and 3, either party, or the
parties jointly, may petition the board to initiate arbitration procedures. On receipt of the petition, the
executive director shall within a reasonable time determine if an impasse has been reached; the determination must be made administratively, with or without hearing, and is not subject to appeal. If the executive director so determines, the executive director
shall issue an order requiring arbitration and requesting the parties to select one or more arbitrators.
If the parties, within 10 days after the issuance of the
order, have not selected an arbitrator or a Board of
Arbitration, the executive director shall then order
each party to select one arbitrator and the 2 arbitrators so selected shall select a 3rd neutral arbitrator.
If the 2 arbitrators cannot in 5 days select a 3rd neutral arbitrator, the executive director shall submit
identical lists to the parties of 5 or more qualified arbitrators of recognized experience and competence.
Each party has 7 days from the submission of the list
to delete any names objected to, number the remaining names indicating the order of preference and return the list to the executive director. In the event a
party does not return the list within the time specified, all parties named therein are deemed acceptable.

App. 62
From the arbitrators who have been approved by both
parties and pursuant to the order of mutual preference, the executive director shall appoint a neutral arbitrator. If the parties fail to agree upon any arbitrators named, or if for any other reason the appointment
cannot be made from the initial list, the executive director shall then submit a 2nd list of 5 or more additional qualified arbitrators of recognized experience
and competence from which they shall strike names
with the determination as to which party shall strike
first being determined by a random technique administered through the Executive Director of the Maine
Labor Relations Board. Thereafter, the parties shall
alternately strike names from the list of names submitted, provided that, when the list is reduced to 4
names, the 2nd from the last party to strike shall be
entitled to strike 2 names simultaneously, after which
the last party to strike shall so strike one name from
the then 2 remaining names, such that the then remaining name shall identify the person who must
then be appointed by the executive director as the
neutral arbitrator.
Nothing in this subsection may be construed as preventing the parties, as an alternative to procedures in
the preceding paragraph, from jointly agreeing to
elect arbitration from either the Federal Mediation
and Conciliation Service or the American Arbitration
Association, under the procedures, rules and regulations of that association, provided that these procedures, rules and regulations are not inconsistent with
paragraphs B and C.

App. 63
B. If the controversy is not resolved by the parties
themselves, the arbitrators shall proceed as follows:
With respect to a controversy over salaries, pensions
and insurance, the arbitrators will recommend terms
of settlement and may make findings of fact; such recommendations and findings will be advisory only and
will be made, if reasonably possible, within 60 days
after the selection of the neutral arbitrator. The arbitrators may in their discretion make such recommendations and findings public, and either party may
make such recommendations and findings public if
agreement is not reached with respect to such findings and recommendations within 10 days after their
receipt from the arbitrators. With respect to a controversy over subjects other than salaries, pensions and
insurance, the arbitrators shall make determinations
with respect thereto if reasonably possible within 60
days after the selection of the neutral arbitrator. Such
determinations may be made public by the arbitrators
or either party and if made by a majority of the arbitrators, such determinations will be binding on both
parties and the parties will enter an agreement or
take whatever other action that may be appropriate
to carry out and effectuate such binding determinations, and such determinations will be subject to review by the Superior Court in the manner specified by
section 1033. The results of all arbitration proceedings, recommendations and awards conducted under
this section shall be filed with the Maine Labor Relations Board at the offices of its executive director simultaneously with the submission of the recommenda-

App. 64
tions and award to the parties. In the event the parties settle their dispute during the arbitration proceeding, the arbitrator or the chairman of the arbitration panel will submit a report of his activities to the
Executive Director of the Maine Labor Relations
Board not more than 5 days after the arbitration proceeding has terminated.
C. In reaching a decision under this section, the arbitrators shall consider the following factors:
(1) The interests and welfare of the students and the
public and the financial ability of the university, academy or community colleges to finance the cost items
proposed by each party to the impasse;
(2) Comparison of the wages, hours and working conditions of the employees involved in the arbitration
proceeding with the wages, hours and working conditions of other employees performing similar services
in public and private employment competing in the
same labor market;
(3) The overall compensation presently received by
the employees, including direct salary and wage compensation, vacation, holidays, life and health insurance, retirement and all other benefits received;
(4) Such other factors not confined to the factors set
out in subparagraphs (1) to (3), which are normally
and traditionally taken into consideration in the resolution of disputes involving similar subjects of collective bargaining in public higher education;

App. 65
(5) The need of the university, academy or community
colleges for qualified employees;
(6) Conditions of employment in similar occupations
outside the university, academy or community colleges;
(7) The need to maintain appropriate relationships
between different occupations in the university, academy or community colleges; and
(8) The need to establish fair and reasonable conditions in relation to job qualifications and responsibilities.
5. Costs. The following costs must be shared equally
by the parties to the proceedings: the costs of the factfinding board, including, if any, per diem expenses
and actual and necessary travel and subsistence expenses; the costs of the neutral arbitrator or arbitrators, including, if any, per diem expenses and actual
and necessary travel and subsistence expenses; the
costs of the Federal Mediation and Conciliation Service or the American Arbitration Association; and the
costs of hiring the premises where any fact-finding or
arbitration proceedings are conducted. All other costs
must be assumed by the party incurring them. The
services of the Panel of Mediators and the State Board
of Arbitration and Conciliation and any state allocation program charges must be shared equally by the
parties to the proceedings and must be paid into a special fund administered by the Maine Labor Relations
Board. Authorization for services rendered and ex-

App. 66
penditures incurred by members of the Panel of Mediators and the State Board of Arbitration and Conciliation is the responsibility of the executive director.
All costs must be paid from that special fund. The executive director may estimate costs upon receipt of a
request for services and collect those costs prior to
providing the services. The executive director shall
bill or reimburse the parties, as appropriate, for any
difference between the estimated costs that were collected and the actual costs of providing the services.
Once one party has paid its share of the estimated
cost of providing the service, the matter is scheduled
for hearing or the mediator is assigned. A party who
has not paid an invoice for the estimated or actual cost
of providing services within 60 days of the date the
invoice was issued is, in the absence of good cause
shown, liable for the amount of the invoice together
with a penalty in the amount of 25% of the amount of
the invoice. Any penalty amount collected pursuant to
this provision remains in the special fund administered by the Maine Labor Relations Board and that
fund does not lapse. The executive director is authorized to collect any sums due and payable pursuant to
this provision through civil action. In such an action,
the court shall allow litigation costs, including court
costs and reasonable attorney’s fees, to be deposited
in the General Fund if the executive director is the
prevailing party in the action.

App. 67
26 M.R.S.A. § 1027
§ 1027. Prohibited acts of the university,
university employees and university employee
organizations
1. University, academy and community colleges; prohibitions. The university, its representatives and
agents, the academy, its representatives and agents
and the community colleges, their representatives
and agents are prohibited from:
A. Interfering with, restraining or coercing employees
in the exercise of the rights guaranteed in section
1023;
B. Encouraging or discouraging membership in any
employee organization by discrimination in regard to
hire or tenure of employment or any term or condition
of employment;
C. Dominating or interfering with the formation, existence or administration of any employee organization;
D. Discharging or otherwise discriminating against
an employee because the employee has signed or filed
any affidavit, petition or complaint or given any information or testimony under this chapter;
E. Refusing to bargain collectively with the bargaining agent of its employees as required by section 1026;
F. Blacklisting of any employee organization or its
members for the purpose of denying them employment;

App. 68
G. Requiring an employee to join a union, employee
association or bargaining agent as a member; and
H. Terminating or disciplining an employee for not
paying union dues or fees of any type.
2. University, academy, community colleges; prohibitions. University employees, university employee organizations, their agents, members and bargaining
agents; academy employees, academy employee organizations, their agents, members and bargaining
agents; and community college employees, community college employee organizations, their agents,
members and bargaining agents are prohibited from:
A. Interfering with, restraining or coercing employees
in the exercise of the rights guaranteed in section
1023 or the university, academy and community colleges in the selection of their representatives for the
purposes of collective bargaining or the adjustment of
grievances;
B. Refusing to bargain collectively with the university, academy and community colleges as required by
section 1026; and
C. Engaging in:
(1) A work stoppage, slowdown or strike; and
(2) The blacklisting of the university, academy or community colleges for the purpose of preventing them
from filling employee vacancies.
3. Negotiation of union security. Nothing in this chapter shall be interpreted to prohibit the negotiation of
union security, excepting closed shop.

App. 69
3-A. Negotiation of initial probationary period. The
length and terms of an employee's probationary period upon initial employment is a negotiable item in
accordance with the procedures set forth in section
1026, except that, at a minimum, the probationary period must include the first 6 months of the employee's
active employment. During the initial 6 months of active employment, an employee may be terminated
without just cause.
4. Violations. Violations of this section shall be processed by the board in the manner provided in section
1029.

App. 70
AGREEMENT BETWEEN UNIVERSITY
OF MAINE SYSTEM AND ASSOCIATED
FACULTIES OF THE UNIVERSITIES
OF MAINE, MEA/NEA
2015 - 2017
[EXCERPTS]
***
ARTICLE 1 – RECOGNITION
The Board of Trustees of the University of Maine System (hereinafter the Board) recognizes the Associated
Faculties of the Universities of Maine / Maine Education Association / National Education Association
(hereafter the Association) as the sole and exclusive
bargaining agent for University of Maine System employees, as defined in the University of Maine System
Labor Relations Act, in the faculty bargaining unit
(hereafter unit members). Unit members are University of Maine System employees in titles or positions
included in the faculty bargaining unit as a result of
the Stipulation in Unit Determination Hearings and
Memorandum of Understanding dated March 27,
1978; the Certification by the Maine Labor Relations
Board on May 11, 1978; and the Unit Determination
Report of the Maine Labor Relations Board dated August 4, 1978, as they are amended by Article 13, Responsibilities of Department, Division or other Appropriate Units and Chairpersons; the Memorandum of
Understanding dated September 19, 1982.

App. 71
ARTICLE 2 - ACADEMIC FREEDOM AND
FACULTY EXPRESSION
The Board and the Association agree that academic
freedom is essential to the fulfillment of the purposes
of the University. The parties acknowledge and encourage the continuation of an atmosphere of confidence and freedom while recognizing that the concept
of academic freedom is accompanied by a corresponding concept of responsibility to the University and its
students. Academic freedom is the freedom of Unit
members to present and discuss all relevant matters
in the classroom, to explore all avenues of scholarship,
research and creative expression, and to speak or
write without any censorship, threat, restraint, or discipline by the University with regard to the pursuit of
truth in the performance of their teaching, research,
publishing or service obligation.
Unit members have the right to comment as faculty
on matters related to their professional duties, and
the functioning of the University, subject to the need
for courteous, professional and dignified interaction
between all individuals and the parties’ shared expectation that all members of the campus community will
work to develop and maintain professional relationships that reflect courtesy and mutual respect recognizing a Unit member’s responsibility to refrain from
interfering with the normal operations of the University and the ability to carry out its mission.
Additionally, Unit members as citizens are entitled to
the rights of citizenship in their roles as citizens, in-

App. 72
cluding to comment on matters of public concern. Because of their special status in the community, unit
members have a responsibility and an obligation to
indicate when expressing personal opinions that they
are not institutional representatives unless specifically authorized as such.
The University of Maine System is a public institution
of higher education committed to excellence in teaching, research, and public service. Together, the students, faculty, and staff form our state wide University community. The quality of life on and about the
member Universities is best served by preserving the
above described freedoms and civility.
ARTICLE 3 - BOARD ASSOCIATION
RELATIONS
A. The Board of Trustees (hereafter Board) and the
Association agree to maintain the academic character of the University of Maine System (hereafter
University) as an institution of higher education.
B. The rights, functions, powers, duties and responsibilities of the Board and its officers and agents,
under applicable state law and the Bylaws of the
Board, including the Board’s right to alter or waive
existing Bylaws or policies in accordance with the
procedures specified in the Bylaws shall remain
vested in the Board and in said officers and agents
except as modified by this Agreement.
C. Nothing contained in this Agreement shall be construed to diminish the rights granted under the
Bylaws of the Board to the entities and bodies

App. 73
within the internal structure of the University so
long as such rights are not in conflict with a stated
term of this Agreement.
D. Nothing contained in this Agreement shall be construed to prevent the Board and its officers and
agents from meeting with any individual or organization to hear views on any matters. The Board or
its officers and agents shall at all times be cognizant of the status of the Association as the sole and
exclusive bargaining agent under the University
of Maine System Labor Relations Act for unit
members. In accordance with Board policy, the Association may express its views at meetings of the
Board of Trustees.
ARTICLE 4 - ASSOCIATION RIGHTS
A. 1. Duly designated staff representatives of the
Association shall be permitted on University
premises at reasonable hours for the purpose of
conducting official Association business. The
Association agrees to a reasonable exercise of
this privilege which will not interfere with or
interrupt the normal operations of the University.
2. One designated grievance chairperson per campus except two (2) at UM, UMA, and USM and,
during the term of negotiations, seven (7) designated negotiating team members shall
henceforth be granted priority, when necessary, insofar as possible within the campus
scheduling procedures, in the selection of times

App. 74
for their assigned teaching schedules and/or
other professional responsibilities in order to
facilitate the implementation of this Agreement. These Association representatives shall
have the responsibility to meet all classes, office hours and other duties and responsibilities.
Such representatives shall have the right during times outside of those hours scheduled for
such activities to investigate, consult and prepare grievance presentations and attend grievance hearings and meetings or participate in
collective bargaining.
3. Upon timely designation by the Association,
unit members who are Association representatives shall be granted a total of not more than
fifty-eight (58) hours of release time during the
period per academic year during the life of the
agreement for the purposes of negotiations,
grievance handling and implementation of this
Agreement. No more than sixteen (16) hours
shall be available to unit members from any
single campus in any semester. The Association may purchase released time at the applicable overload rate for six (6) additional unit
members timely designated for the above described purposes. Such purchased released
time shall not exceed a total of eighteen (18)
hours per semester, and all released time shall
be subject to the above limitations regarding its
allocation to campuses.

App. 75
4. The Association shall inform the University of
the names of the individual unit members who
are to receive priority scheduling and/or released time far enough in advance so that the
scheduling of any semester’s classes is not interfered with or otherwise disrupted. Release
time notification shall be made no later than
May 31 for the following fall semester and no
later than October 31 for the following spring
semester.
B. 1. The Association shall be allowed reasonable
use of the intra-campus mail system.
2. The Association may request a lockable office
for Association use pursuant to existing campus procedures at the University of Maine and
the University of Southern Maine. An office
shall be provided to the Association if available.
3. The University shall allow at no cost to the association the listing of a campus or other designated phone number for the Association in each
campus directory. The Association may, at its
cost, have a University phone installed on each
campus. All operating charges shall be borne
by the Association.
4. The Association shall have access for purposes
of Association business to campus meeting
rooms through the normal reservation process
at each campus. The Association shall pay only
the amount required of other campus organizations for this privilege.

App. 76
5. The Association shall have access to the use of
available campus office equipment at reasonable times.
6. The Association shall receive at no cost
three (3) campus parking passes, where utilized, to assure ease of compliance with campus
traffic regulations while representatives of the
Association are on official business.
7. Within the months of February, April, June,
August, October and December of each year
and at no cost to the Association, the University shall supply the Association with a standardized MEA electronic data file (see below).
Once standardized, no changes will be made to
the data file during the life of this Agreement.
Collective Bargaining
Unit
Unique ID
Employee ID
First and Last Name
Health Plan Type
Address (home)
Gender
Birth Date
Education Level
Step
Campus
Salary Base
Coverage
Country

Original Hire Date
Title
Department
Job Code
Job Entry Date
Employment Status
Regular / Temp
Time Base (full or
part-time)
FTE
Union Code
Campus Address
Wage Grade
Benefit Plan
Soft Money

App. 77
Contract Length
Tenure Status

Work Year
College – where employed

Hourly rate
8. The University agrees to provide to AFUM an
Excel file containing the best available information regarding the name, course number,
course title, number of credits per course and
number of student credits for all non-unit
members teaching credit bearing courses. Such
report shall be provided twice annually by January 31 for Fall semester and by June 30 for
Spring semester.
9. Unless otherwise stated in this Article, the Association shall pay the cost of all materials,
supplies and any other normal charge incident
to the use of equipment or facilities.
C. The University shall supply the Association president or that person’s designee with all public agendas, minutes and reports of the Board of Trustees
in a timely fashion. At any Board of Trustees meeting where the agenda specifies public discussion
with the public regarding matters which are subject to collective bargaining with the Association,
the Association shall have the opportunity upon
request to express its views in accordance with
procedures and conditions for public comment
which are adopted by the Board.

App. 78
ARTICLE 5 - MEET AND DISCUSS
A. Upon request of either party, the Chancellor
and/or designees of the Chancellor shall during the
term of this Agreement meet with a committee appointed by the Association for the purpose of discussing matters necessary to the implementation
of this Agreement.
B. The request for any such meetings shall include a
list of the specific matter(s) to be discussed. A copy
of any request shall be sent simultaneously to the
offices of the Director of Labor Relations and the
Association’s Higher Education Representative.
C. If the matters to be discussed are University-wide,
appropriate arrangements will be made by the
Chancellor’s office to schedule the meeting within
two (2) weeks of notice in such manner and at such
times as the parties mutually agree. The Association Committee shall be of reasonable size and
shall not exceed eight (8) persons. Likewise, the
number of University System representatives
shall not exceed eight (8). Six (6) meetings per
year, if requested, shall constitute compliance
with this section. Additional meetings may be
scheduled by mutual consent in the manner described above.
D. If the matters to be discussed are related to a particular campus, the Chancellor’s Office will notify
the chief administrative officer of that campus who
shall make the appropriate arrangements to

App. 79
schedule the meeting within two (2) weeks of receipt of notice in such manner and at such times
as the parties mutually agree. The Association
Committee shall be of reasonable size and shall
not exceed six (6) persons. Likewise, the number of
University System representatives shall not exceed six (6). Two (2) meetings per semester per
campus, if requested, shall constitute compliance
with this section. Additional meetings may be
scheduled by mutual consent in the manner described above.
E. Such meetings shall not be for the purpose of discussing specific grievances, conducting collective
bargaining negotiations on any subject, or modifying, adding to or deleting any provision of this
Agreement.
F. Matters of common concern, other than those specified in paragraph A, may be placed on the list of
matters to be discussed with the Chancellor by
mutual agreement of the Chancellor and the Association.
***
ARTICLE 10 – EVALUATIONS
***
B. Procedure for the Development of Evaluation Criteria:
***
2. The parties agree that student input is essential in the improvement of instruction and shall

App. 80
be considered during evaluation. Further, student input is a meaningful part of evaluation.
Consequently, Unit members shall conduct
student evaluations in each course taught. A
department, division or other appropriate unit
may develop or revise a standard student evaluation form and procedure. Student evaluation
forms and procedures shall be developed, revised and approved in accordance with paragraph B(3) of this Article, except that the Association shall develop a default student evaluation form and procedures for assessment of
online and interactive television (ITV) courses.
The form shall be administered in an online
format. In developing the form and procedures,
the Association shall solicit comments from
and work with faculty, and shall submit the
form and procedures for approval by the Vice
Chancellor for Academic Affairs in accordance
with the process outlined in paragraph B(3) of
this Article. Said default form and procedures
shall be used for online and ITV courses starting with the first semester beginning at least
ninety (90) days after said approval, and thereafter, unless an alternative is developed for
online courses by the department, division or
other appropriate unit. The procedure for developing this default form shall not constitute
a practice or precedent for any other process
carried out by departments, divisions or other
appropriate units. Student evaluations shall be

App. 81
part of a Unit member’s personnel file as follows:
***
ARTICLE 14 - CHECKOFF AND
MAINTENANCE OF MEMBERSHIP
A. Unit members shall elect one of the following options within sixty (60) days of initial employment
in the bargaining unit or execution of this Agreement, whichever is later: 1) membership in the
Association; 2) payment of a Representation Fee;
or, 3) payment to an education fund.
B. For purposes of this Article, “Representation Fee”
is the costs associated with the negotiation and
continued administration of this Agreement and
the legal requirement that the Association represent all bargaining unit members. During the
term of this Agreement, the Representation Fee
shall be assessed monthly at an amount specified
by the Association as set forth in Section E below.
C. Unit members who elect the education fund option
shall during the term of this Agreement be assessed monthly at the rate of one-twelfth (1/12) of
the annual membership dues.
D. Unit members who are members of the Association
as of the date of ratification of this Agreement, or
who, thereafter, during its term, become members
of the Association, shall maintain their membership in the Association for the term of this Agree-

App. 82
ment; provided, however, that any such unit member may resign from membership in the Association during the period from August 15 to September 15 of a given year. Unit members who resign
from membership in the Association are required
to select an alternative option from Section A
above upon the effective date of their resignation.
If a unit member resigns and does not select an
alternative option, upon notification from the Association, the University shall deduct the monthly
Representation Fee in accordance with F below.
E. The University agrees to deduct in monthly installments the dues of the Association, the Representation Fee or the education fund contribution
from the pay of those unit members who individually request in writing that such deductions be
made. The amount(s) to be deducted shall be certified in writing by the Association within thirty
(30) days of the signing of this Agreement, and
thereafter by August 10 of each year. The University shall remit monthly the aggregate deductions,
together with an itemized statement containing
the names of the unit members from whom the deductions have been made and the amount so deducted from each one. The aforesaid remittance
shall be made by the 15th of each month following
the month in which such deductions have been
made.
F. The Association has demonstrated, based upon actual payroll records, that two-thirds (2/3) of the
unit members voluntarily economically support

App. 83
the Association either through the payment of a
membership fee or voluntary payment of the Representation Fee. Therefore, during the term of this
Agreement the University agrees to deduct a
monthly Representation Fee from the pay of all
unit members hired on or after August 16, 2010
who have not signed an authorization for the University to deduct monthly installments for one of
the options specified in Section A of this Agreement and also have not made arrangements to pay
regular dues, representation fees or contributions
to the education fund to the Association directly,
unless the unit member is a religious objector as
provided under Section G. The Association shall
advise the University as to the names of such unit
members who have not either authorized payroll
deductions, made arrangements for direct payments, or qualified for religious objector status.
Automatic deductions for those unit members as
described in this paragraph will begin in the pay
period following the month during which the Association has notified the University as required by
this section.
G. Any unit member covered hereby who maintains
that she/he holds a sincere and bona fide religious
belief that conflicts with an obligation to financially support the Association, public employee organizations or labor organizations in general may
seek religious objector status by petitioning the
Association. Any such unit member who is found
by the Association to hold a sincere and bona fide

App. 84
religious belief that conflicts with an obligation to
financially support the Association, public employee organizations or labor organizations in general, shall have the right to refuse to pay the Representation Fee only so long as the unit member
makes contributions at least equal in amount to
the Representation Fee to a non-religious charitable organization mutually agreed upon by the unit
member so refusing and the Association, within
ten (10) days after each payday. The Association
shall not unreasonably deny the choice of such
non-religious charitable organization suggested by
the unit member. An administrative or legal challenge to a denial of a petition for religious objector
status may be filed by the unit member against the
Association in an appropriate forum and shall not
be subject to grievance arbitration under this
Agreement.
Should a unit member have a pending written request for religious objector status or a pending administrative or legal challenge regarding their religious objector status, the University will continue to deduct the Representation Fee from the
unit member’s pay until the request is granted or
the challenge is resolved, and that amount will be
placed by the Association in an interest-bearing
escrow account pending resolution of such dispute
or request. If, as a result, the unit member is
granted religious objector status then the Association will pay the amount held in escrow to the unit

App. 85
member. The Association shall pay for any maintenance fees associated with such escrow accounts.
The University shall not be liable for any fees,
costs, damages, expenses, or any other form of liability involved with regard to such escrow accounts. If a unit member is granted religious objector status, the Association will notify the University of the unit member’s religious objector status and the University will cease automatic Representation Fee deductions.
It shall be the sole responsibility of the Association
to verify contributions made in lieu of Representation Fees pursuant to this Section G of this Article.
It shall be the sole obligation of the Association to
certify to the University the name of any unit
member who has failed to make timely contributions as a religious objector and has, thus, forfeited
religious objector status. Once the Association has
certified the unit member’s name to the University, the University will commence and continue to
automatically deduct the Representation Fee from
the unit member’s pay as provided in Section F of
this Article.
H. It shall be the sole responsibility of the Association
to verify payments or contributions made directly
to the Association pursuant to Section A of this Article. It shall be the sole obligation of the Association to advise the University, as set forth in Section F above, as to the name of any unit member
who has failed to make timely payments or contributions directly to the Association and has, thus,

App. 86
forfeited direct payment status. Once the Association has provided a unit member’s name to the
University, the University will commence and continue to automatically deduct the Representation
Fee from the unit member’s pay as provided in
Section F of this Article.
Any administrative or legal challenge regarding
payments or contributions made or not made directly to the Association by a unit member may be
filed by the unit member against the Association
in an appropriate forum and shall not be subject to
grievance arbitration under this Agreement.
Should a unit member have a pending dispute
with the Association regarding direct pay status or
a pending administrative or legal challenge regarding his or her payments or contributions payable directly to the Association, the University will
continue to deduct the Representation Fee from
the unit member’s pay until the dispute or legal
challenge is resolved, and that amount will be
placed by the Association in an interest-bearing
escrow account pending resolution of such dispute
or challenge. If, as a result, the unit member is
granted direct pay status then the Association will
pay the amount held in escrow to the unit member.
The Association shall pay for any maintenance
fees associated with such escrow accounts. The
University shall not be liable for any fees, costs,
damages, expenses, or any other form of liability
involved with regard to such escrow accounts. If a

App. 87
unit member is granted direct pay status, the Association will notify the University of the unit
member’s direct pay status and the University will
cease automatic Representation Fee deductions. It
will be the Association’s obligation to work out a
direct payment or contribution plan with the unit
member.
I. The University shall not be responsible for making
any deduction for dues, fees or education fund contributions if a unit member’s pay within any pay
period, after deductions for withholding tax, Social
Security, retirement, health insurance, and other
mandatory deductions required by law is less than
the amount of authorized deductions or from
worker’s compensation benefits. In such event, it
will be the responsibility of the Association to collect the dues or fees for that pay period directly
from the unit member.
J. The University shall be entitled to designate at
least one (1) representative to participate in the
administration of the education fund.
K. The University’s responsibility for deducting fees
from a unit member’s salary specified in Section A
of this Article shall terminate automatically upon
either: 1) cessation of the authorizing unit member’s employment, or 2) the transfer or promotion
of the authorizing unit member out of the bargaining unit.

App. 88
L. The University shall deduct any authorized
amount as certified by the Association in accordance with section D, E or F above. Failure of a unit
member to meet the obligation set forth in Section
A shall not result in termination or non- reappointment of a unit member.
M. The Association and the University shall develop
appropriate forms to authorize payment of the representation fees and education fund contributions.
N. The University shall inform all unit members in
writing of their obligation to make an election as
specified in section A above. Such notice shall be
given to individuals in writing in the initial letter
of appointment.
O. The University agrees to mail to all newly appointed faculty at the start of the academic year a
letter provided by AFUM concerning membership
in the Association along with such membership
forms as AFUM desires to enclose. This letter may
also reference the AFUM website for those new
faculty who may wish to complete the form electronically.
P. The Association agrees that it shall indemnify, defend, reimburse, and hold the University harmless
(collectively, “Indemnification”) against any claim,
demand, suit, cost, expense, damages or any other
form of liability, including attorney’s fees, costs or
other liability arising from or incurred as a result
of any act taken or not taken by the University, its

App. 89
members, officers, agents, employees or representatives in complying with or carrying out the provisions of this Article; in reliance on any notice, letter or authorization forwarded to the University
by the Association pursuant to this Article; and including but not limited to any charge that the University failed to discharge any duty owed to its employees arising out of the Representation Fee deduction. The Association will intervene in and defend any administrative or court litigation concerning the propriety of any act taken or not taken
by the University under this Article. In such litigation, the University shall have no obligation to
defend its act taken or not taken.
Q. Should any Court or other authority find the indemnity clause in Section P above void or unenforceable, Article 14 of the parties’ July 1, 2007December 31, 2009 collective bargaining Agreement shall apply in place of this Article.
ARTICLE 15 - GRIEVANCE PROCEDURES
The Association and the University agree that they
will use their best efforts to encourage the informal
and prompt settlement of any complaint that exists
with respect to the interpretation or application of
this Agreement. However, in the event such a complaint arises between the University and the Association which cannot be settled informally, a grievance
procedure is described herein. Pursuant to this procedure, it is the intent of both the Association and the
University that grievances shall be handled in a

App. 90
timely manner and that neither party shall delay procedures unnecessarily.
A. Definitions:
1. A “grievance” shall mean an unresolved complaint arising during the period of this Agreement between the University and a unit member, a group of unit members, or the Association with respect to the interpretation or application of a specific term of this Agreement.
2. A “grievant” is the unit member, group of unit
members or Association making the complaint.
3. “Days” shall mean all days exclusive of Saturdays, Sundays and officially recognized University holidays, as described in Article 19,
Leaves.
B. Informal Procedure:
A complaint may be presented informally to the
administrator whose decision or action is being
contested.
C. Formal Procedure:
Step 1: In the event satisfactory resolution is not
achieved through informal discussions the
grievant, within thirty (30) days following the act
or omission giving rise to the grievance or the date
on which the grievant reasonably should have
known of such act or omission if that date is later,
shall complete and forward to the administrator
whose action or decision is being contested the
written signed grievance form (Appendix A). The

App. 91
administrator shall respond in writing within
twenty (20) days of receipt of the grievance.
Step 2: If satisfactory resolution is not achieved in
Step 1, the grievant, within twenty (20) days of receipt of an answer, or of the date the answer is due
if no answer is provided, shall forward the grievance form, written statement(s) why the resolution is not satisfactory, and any other documentation, to the next appropriate level of administration. A grievance so presented shall be answered
in writing within twenty (20) days of receipt of the
grievance. This step of the grievance procedure
shall be applicable only at the following campuses:
UMF, UM, UMPI, USM.
Step 3: In the event satisfactory resolution is not
achieved in Step 2, the grievant, within twenty
(20) days of the receipt of an answer or of the date
the answer is due if no answer is provided, shall
forward the grievance form and written statement(s) why the resolution is not satisfactory, and
any other documentation, to the chief administrative officer of his/her designee. A grievance so presented shall be answered in writing within twenty
(20) days of receipt of the grievance. If a grievance
affects unit members in more than one department, division or other appropriate unit on a campus, the Association, within twenty (20) days following the act or omission giving rise to the grievance or the date on which the Association reasonably should have known of such act or omission if

App. 92
that date is later, shall forward to the chief administrative officer or his or her designee the written
signed grievance form referred to in Step 1. A
grievance so presented shall be answered in writing within twenty (20) days of receipt of the grievance.
Step 4: In the event satisfactory resolution has not
been achieved in Steps 1 through 3, the Association, within twenty (20) days of receipt of the answer or of the date the answer is due if no answer
is provided, may forward to the Chancellor or his
or her designee the written grievance form, written statement(s) why the resolution is not satisfactory, and any other documentation. The Chancellor or his or her designee shall answer in writing
within twenty (20) days of receipt of the grievance.
If the grievance affects unit members on more
than one campus, the Association, within twenty
(20) days following the action or omission giving
rise to the grievance or the date on which the Association reasonably should have known of such
act or omission if that date is later, shall forward
to the Chancellor or his or her designee the written
signed grievance form referred to in Step 1. A
grievance so presented shall be answered in writing within twenty (20) days of receipt of the grievance.
Step 5: a) In the event a grievance is not satisfactorily resolved at Step 4 of the grievance procedure
and the Association wishes to proceed to arbitra-

App. 93
tion, it shall serve written notice to that effect. Notice shall be by certified mail directed to the Chancellor within twenty (20) days after receipt of the
Step 4 answer or the date such answer is due, if no
answer is provided. The parties shall meet within
twenty (20) days to select an arbitrator competent
in matters concerning institutions of higher education. Should the parties be unable to agree upon
an arbitrator within ten (10) days of the initial
meeting, or if the twenty (20) day period lapses
without a meeting being scheduled, the grievance
shall be referred by either party within twenty (20)
days to the Federal Mediation and Conciliation
Service for resolution by a single arbitrator in accordance with the procedures, rules and regulations of that Association. Should the grievant elect
representation in arbitration by counsel of his or
her choosing, said counsel will assume full responsibility of selecting an arbitrator pursuant to the
provision of this paragraph. The arbitrator shall
not waive timelines or excuse counsel in instances
where counsel fails to adhere to the specified timelines as related to the selection of the arbitrator.
The Association will provide written notification to
the Chancellor or the Chancellor’s designee that
the grievant’s counsel will assume the responsibility of selecting an arbitrator and will also represent the grievant in arbitration
Expedited Arbitration
The University and the Association shall decide on
a case-by-case basis whether expedited arbitration

App. 94
proceedings shall be utilized for any particular
grievance. In those cases where both parties agree
in writing to expedite arbitration, the following
procedure shall be used:
The parties shall agree within sixty (60) days following the execution date of the Agreement on a
panel of not fewer than seven (7) arbitrators who
are members of the National Academy of Arbitrators. The panel members shall be placed in alphabetical order and shall be selected by rotation from
top to bottom of the list of panel members. The arbitrators shall agree to hear a case in not less than
ten (10) days and not more than twenty (20) days.
If an arbitrator is not able to hear the case within
the established time, the next arbitrator on the list
shall be selected. The arbitration shall take place
at a time and location agreed on by the parties.
The arbitration shall be conducted in accordance
with the following procedures:
a. The hearing shall be informal
b. Formal rules of evidence shall not apply
c. There shall be no transcripts or posthearing briefs
d. The arbitrator shall notify the parties of
his or her decision within seventy-two
(72) hours after the close of the hearing.
e. The decision of the arbitrator shall be
based on the record before the arbitrator
and shall include a written explanation

App. 95
of the arbitrator’s decision. The arbitrator may issue his or her written explanation after the time of the decision, but in
no case longer than seven (7) calendar
days from the date the arbitrator gives
notice of his or her decision.
f. The decision shall be final and binding
g. If the parties mutually agree, the arbitrator may be asked for a bench decision
b) The arbitrator shall have no authority to
add to, subtract from, modify or alter the
terms or provisions of this Agreement. Arbitration shall be confined to disputes arising
under the terms of this Agreement.
c) The arbitrator shall have no authority to
substitute his or her judgment for the academic judgment exercised by the chief administrative officer or designee(s) or the
Board of Trustees or their designee(s).
d) The arbitrator’s decision as to whether
there has been a violation of this Agreement
shall be final and binding on the University,
the Association and any and all affected
members.
e) An arbitrator may award lost University
compensation where appropriate to remedy
a violation of this Agreement, but the arbitrator may not award other monetary damages or penalties.

App. 96
f) The arbitrator may award an appropriate
remedy when a violation of the Agreement
has been determined. In no case shall the
arbitrator award tenure as a remedy nor
shall an arbitrator’s decision awarding employment beyond the sixth year of employment entitle the unit member to tenure. The
arbitrator in a case involving the denial of
tenure may direct a remand to the Board of
Trustees and may include a recommendation regarding the tenure status of the unit
member.
g) If a unit member is reappointed at the direction of an arbitrator, the chief administrative officer shall consult with the unit
member and assign the person during the
period of appointment to a mutually agreed
upon assignment which may be the former
position or a substantially equivalent one.
D. Duplicate Proceedings:
1. The Association and the University agree that
this grievance procedure is the best forum for
resolving issues of alleged contract violations.
Consequently, the Association and the University will encourage any employee alleging a violation of the non-discrimination article to seek
relief through this process. Notwithstanding
the above sentence, employees may have rights
to pursue claims or complaints through outside
agencies, including the Office of Civil Rights
and the Maine Human Rights Commission. If a

App. 97
complaint is filed with such an outside agency,
any internal grievance that is filed or pending
will be processed in accordance with the terms
of this Article.
2. In the event a claim is filed with an outside
agency such as those referenced above or filed
through the University’s equal opportunity
complaint procedure, the University and Association may jointly agree to an extension of the
deadline for a grievance response. All such extensions shall be to a specified date and shall
be documented in writing.
E. Rights and Responsibilities of the Grievant, University and Association:
1. No reprisals shall be taken by either the
grievant, Association, or the University against
any participant in the grievance procedure by
reason of such participation.
2. A unit member may be represented at any level
of the grievance procedure by an Association
member, or professional staff or counsel of the
Maine Education Association.
3. When a unit member is not represented by the
Association, the Association shall have the
right and a reasonable opportunity to be present at all stages of the formal procedure and
to state its views.

App. 98
4. Except for the decision resulting from arbitration or settlement, all documents, communications and records dealing with the processing
of a grievance shall be filed separately from the
personnel files of the unit members.
5. The forms which must be used for filing a grievance (Appendix A), and any subsequent review
(Appendix B) shall be prepared by the University and supplied to unit members and the Association.
6. In all grievances at Steps 3 and 4, the grievance
designees for the Association and the University, or their representatives, will arrange a
meeting to discuss the grievance. Other participants in the matter which is the subject of the
grievance may attend by invitation of a party.
The requirement to conduct such a meeting
may be waived with respect to any grievance by
mutual agreement, confirmed in writing, of the
University and Association representatives involved. All meetings and hearings under this
procedure shall be conducted in private and
shall include only the parties in interest and
their designated representatives.
7. In the event that a grievance is not timely answered by the University at any step in the procedure, the grievant or the Association, as appropriate, may file at the next step in the procedure.

App. 99
8. The costs of arbitration will be borne equally by
the University and the Association. Such
shared costs shall be limited to the arbitrator’s
fee and expenses and the charges of the American Arbitration Association.
9. The University shall promptly forward to the
Association a copy of any submitted written
grievance and any written material accompanying the grievance. This requirement is
waived in case of grievances filed by the Association, or unit member(s) who are represented
by the Association or its representatives. If the
Association requests material relevant to a
grievance that did not accompany the grievance, the University will make a reasonable effort to provide relevant material that is in its
possession unless provision of such material is
deemed by the University to be violative of its
responsibility under 1 MRSA 401-410.
10. No complaint informally resolved or grievance
resolved at Steps 1, 2, 3 or 4 shall constitute a
precedent for any purpose unless agreed to in
writing by the Chancellor or designee and the
Association.
11. All grievances shall be filed within the time
limits set forth or the grievance will be deemed
to have been resolved by the decision at the
prior step. The time limits in this Article may
be extended by mutual agreement of the
grievant and the appropriate University ad-

App. 100
ministrator at any step of the grievance procedure except that the time limits for the initial
filing of a grievance may be extended only by
agreement between the Chancellor or designee
and the Association. Any mutual agreement
shall be confirmed in writing as soon as practicable.
12. Acts or omissions which occurred prior to the
execution of this Agreement shall not constitute evidence of a violation of any term of this
Agreement.
13. Grievances will be scheduled for arbitration in
the order in which the University receives from
the Association notice of its intent to proceed to
arbitration, except where the parties mutually
agree otherwise in this Agreement. In scheduling arbitrations, the parties may mutually
agree to schedule more than one grievance to
be heard by a single arbitrator.
***
ARTICLE 17 - RETRENCHMENT
A. “Retrenchment” shall mean the discontinuance of
a unit member with a tenured appointment or continuing contract from a position at any time or a
probationary or fixed length appointment before
the end of the specified term for bona fide financial
or program reasons including temporary or permanent program suspension or elimination.

App. 101
***
C. Unit members to be retrenched shall be informed
as soon as possible, with a copy of the notice to the
Association. Unit members shall receive the applicable notice period provided for in Article 7, Appointment, Reappointment and Non-Reappointment and Contract Status, except for unit members with tenured or continuing contract appointments shall receive at least one and one-half (1
1/2) years notice of retrenchment, as described in
Section D of this Article and be notified of the decision to retrench the faculty member’s position no
later than October 31 or March 31 of the semester
in which notice or retrenchment is given.
***
J. When a retrenchment is ordered, the University
shall make available to the Association relevant
information upon request.
K. In the event of retrenchment, the Association shall
proceed directly to Step 3 of Article 15, Grievance
Procedure.
***
ARTICLE 25 - BARGAINING UNIT WORK
A. Bargaining unit work includes such activities as
are described in Articles 10.B and 11.C.1. These
responsibilities are fulfilled in major part by unit
members.

App. 102
B. It is the intention of the parties that bargaining
unit work be performed by unit members. However, the responsibilities stated above, as in any
other academic institution, are also fulfilled by
non-unit members.
C. A variety of research, specialized advising, public
service and teaching that has not been traditionally performed by unit members may be determined to constitute part of regular workload or
overload as provided in Article 11.
D. Undergraduate students shall not assume regular
classroom teaching responsibilities.
E. Where non-unit members have teaching responsibilities, evaluation of teaching performance shall
be in accordance with the procedures established
in this Agreement.
F. Overload courses within their department, division or other appropriate unit shall be offered to
qualified unit members. The distribution of such
courses shall be in an equitable manner.
G. Unit members shall be informed of summer session and mini-session course opportunities within
their department, division or other appropriate
unit. Current practice regarding the assignments
of these courses within the department, division or
other appropriate unit shall be continued.
H. Departments, division or other appropriate units
identified in the report of the Committee on Bargaining Unit Work dated July 24, 1985 which use

App. 103
non-unit members for more than 35% of current
teaching contracts shall not increase this proportion except in the case of unusual circumstances
with notice to the Association.
***
ARTICLE 27 - NON-DISCRIMINATION
The University and the Association agree not to discriminate illegally with respect to wages, hours and
working conditions based upon: race, color, religion,
sex, sexual orientation, including transgender status
or gender expression, national origin, citizenship status, age, disability, genetic information, veterans status or membership or non-membership in the Association.
ARTICLE 28 - NO STRIKE OR LOCKOUT
The Board and the Association agree that disputes
which may arise between them shall be settled without resort to strike or lockout and that the requirements of law in this regard will not be violated. The
Board agrees it will not lockout any or all unit members during the term of this Agreement. The Association agrees on behalf of itself and unit members that
there shall be no strikes, slow-downs or interference
with the normal operation of the University during
the term of this Agreement.
***
ARTICLE 32 - PROGRAM ELIMINATION
The Association shall be notified in writing of any proposed elimination or suspension of a program to

App. 104
which unit members are assigned at the time a Program Elimination Procedure is initiated. The Association shall have the opportunity to meet and discuss
with the campus administration prior to completion
of an impact study.
ARTICLE 33 - CONDITIONS OF AGREEMENT
This is a tentative Agreement and shall be of no force
and effect unless and until all of the following occur:
A. The tentative Agreement is approved by the Board
of Trustees of the University of Maine System.
B. The tentative Agreement is ratified by the bargaining unit membership of the Associated Faculties of the University of Maine System, MEA/NEA.

